App. 1
FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANA SANDOVAL, individually
and as successor in interest
to Ronnie Sandoval, Jr.;
RONNIE SANDOVAL, JR.;
JOSIAH SANDOVAL,
Plaintiffs-Appellants,

No. 18-55289
D.C. No.
3:16-cv-01004BEN-AGS
OPINION

v.
COUNTY OF SAN DIEGO;
ROMEO DE GUZMAN; MARIA
LLAMADO; DANA HARRIS,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of California
Roger T. Benitez, District Judge, Presiding
Argued and Submitted October 16, 2019
Submission Vacated March 16, 2020
Resubmitted January 6, 2021
Pasadena, California
Filed January 13, 2021
Before: Kim McLane Wardlaw and Daniel P. Collins,
Circuit Judges, and Joseph F. Bataillon,* District Judge.

* The Honorable Joseph F. Bataillon, United States District
Judge for the District of Nebraska, sitting by designation.

App. 2
Opinion by Judge Wardlaw;
Partial Concurrence and Partial Dissent by Judge Collins
COUNSEL
Christopher S. Morris (argued), Morris Law Firm APC,
San Diego, California, for Plaintiffs-Appellants.
Fernando Kish (argued) and James M. Chapin, Senior
Deputies; Thomas E. Montgomery, County Counsel;
Office of County Counsel, San Diego, California; for Defendants-Appellees.
OPINION
WARDLAW, Circuit Judge:
Ronnie Sandoval died of a methamphetamine overdose at the San Diego Central Jail after medical staff
left him unmonitored for eight hours, despite signs
that he was under the influence of drugs, and then
failed to promptly summon paramedics when they discovered him unresponsive and having a seizure. Sandoval’s wife and successor-in-interest, Ana Sandoval
(Plaintiff ), brought suit under 42 U.S.C. § 1983 against
the County of San Diego and Nurses Romeo de Guzman, Dana Harris, and Maria Llamado, alleging that
they violated Sandoval’s Fourteenth Amendment right
to adequate medical care in custody.
The district court granted summary judgment to
the defendants, concluding that there were no triable issues of fact as to their liability and that the

App. 3
individual nurses were entitled to qualified immunity.
After the district court issued its decision, we clarified
that an objective standard applies to constitutional
claims of inadequate medical care brought by pretrial
detainees. Gordon v. County of Orange, 888 F.3d 1118,
1124-25 (9th Cir. 2018). Applying that standard here,
we reverse because genuine disputes of material fact
preclude the award of summary judgment, and we remand for further proceedings.
I.
Many of the facts underlying this case are in dispute. We recount them in the light most favorable to
Plaintiff, as the non-moving party in the district court.
Tuuamalemalo v. Greene, 946 F.3d 471, 474 (9th Cir.
2019) (per curiam).
A.
On February 22, 2014, deputies from the San Diego Sheriff ’s Department went to Ronnie Sandoval’s
residence to conduct a probation compliance check. After the deputies found a gram of methamphetamine
and drug paraphernalia, they placed Sandoval under
arrest and took him to the San Diego Central Jail. Unbeknownst to the arresting deputies, Sandoval had
swallowed an additional amount of methamphetamine—later estimated to be several hundred times the
typical recreational dose—in an effort to prevent its
discovery.

App. 4
At the jail, Deputy Matthew Chavez noticed that
Sandoval was sweating and appeared disoriented and
lethargic. When asked about these symptoms, Sandoval told Chavez that he might be diabetic. A nurse
tested Sandoval’s blood sugar level, which came back
normal, and Sandoval was placed in a holding cell.
Approximately one hour later, Sandoval was removed from the cell to have his booking photograph
taken. Deputy Chavez observed that Sandoval “was
still sweating a lot and appeared to be very tired and
disoriented.” Chavez asked Sandoval if he was ok.
Sandoval responded that he was very cold, which
Chavez found odd because Sandoval was sweating.
Another deputy asked Sandoval if he had swallowed
anything, and Sandoval became agitated and refused
to answer further questions.
Deputy Chavez took Sandoval to the second-floor
medical station for an assessment. There he encountered Nurse Romeo de Guzman. Chavez told de Guzman that while Sandoval had been cleared by the
medical staff downstairs, he was sweating and appeared disoriented and lethargic. According to Chavez,
he specifically told de Guzman, “there [is] still something going on [with Sandoval], so you need to look at
him more thoroughly.”1 De Guzman told Chavez to put
Sandoval in Medical Observation Cell No. 1 (MOC1).

1

Nurse De Guzman contends that he was told only to check
Sandoval’s blood sugar level, but on summary judgment, we must
accept Deputy Chavez’s version of events.

App. 5
Shortly thereafter, around 5:00 p.m., de Guzman
entered MOC1 to attend to Sandoval. Leonard Rodriguez, a deputy who accompanied de Guzman into the
cell, noticed that Sandoval was “shaking mildly” and
“appeared to be having withdrawals from drugs.” De
Guzman gave Sandoval a second, and “very quick,”
blood sugar test, which came back normal and then left
the cell without conducting any further examination.
From there, accounts diverge. Nurse de Guzman
claims that he told deputies that Sandoval was “cleared
for booking process.” But according to Deputy Rodriguez’s written, contemporaneous police report, de Guzman instead asked whether Sandoval could be moved
to a “sobering tank.” The deputies conferred and determined that it would be better if Sandoval remained in
MOC1, presumably so that he would be subject to
closer observation by the medical staff.
All agree that Sandoval was not transferred and
instead remained in MOC1. And it is undisputed that
even though MOC1 was only 20 feet from the nursing
station, Nurse de Guzman did not check on Sandoval
at any point during the remaining six hours of his
shift. When the next shift of nurses arrived at 11:00
p.m., de Guzman did not tell them anything about
Sandoval either. When asked why he never checked on
Sandoval, de Guzman responded simply, “I don’t have
to.”
The failure to monitor Sandoval may have resulted in part from the “mixed use” nature of MOC1.
While MOC1 was sometimes used to hold inmates

App. 6
requiring medical care, it was used at other times as
an ordinary holding cell. Unlike other cells used for inmates with medical issues, no nurses were specifically
assigned to monitor individuals being held in MOC1.
Instead, nurses would attend to MOC1 only if told that
an individual who was placed there needed care.
This sometimes caused confusion. For example,
Nurse de Guzman claims that he did not check on
Sandoval because he believed that MOC1 was used exclusively as an ordinary holding cell and that Sandoval
was being held there for correctional, rather than medical, purposes. In contrast, the deputies believed that
by leaving Sandoval in MOC1, they would ensure that
he would be monitored by the medical staff.
Whatever the cause, Sandoval remained almost
entirely unmonitored for nearly eight hours until Sergeant Robert Shawcroft walked past MOC1 at 12:55
a.m. and noticed that Sandoval’s eyes “weren’t tracking” and that his skin tone “wasn’t a fleshy color.”2 As
Shawcroft watched, Sandoval slumped over and his
eyes rolled back in his head. Shawcroft turned away to
call for help, and when he turned back, he saw Sandoval hit his head on the wall and slide down to the floor.
Sergeant Shawcroft entered Sandoval’s cell and
was soon joined by Deputies Nolan Edge and Matthew
2

Other than one deputy who briefly checked on Sandoval
around 7:30 p.m., it appears that nobody entered MOC1 between
around 5:00 p.m., when Nurse de Guzman performed the blood
test, and 12:55 a.m., when Sergeant Shawcroft observed Sandoval
in medical distress.

App. 7
Andrade, and Nurses Dana Harris and Maria Llamado.
Sergeant Shawcroft, Deputy Andrade, Deputy Edge,
and Nurse Llamado all agree that Sandoval was unresponsive and having a seizure or “seizure-like activity.”
In contrast, Nurse Harris contends that Sandoval was
responsive, followed verbal commands, and was not
seizing.
Whether Sandoval was unresponsive and seizing
bears on an important distinction in this case between
emergency medical technicians (EMTs) and paramedics. While the terms are sometimes used interchangeably, paramedics receive more advanced training than
EMTs. EMTs can provide only basic life support (BLS)
procedures, such as performing CPR and providing a
patient with an oxygen mask. In contrast, paramedics
are trained to perform advanced cardiovascular life
support (ACLS) procedures, including establishing IVs,
administering medications, reading heart rhythms, and
inserting breathing tubes. Critically, when a patient is
unresponsive, paramedics are required. In San Diego
at least, EMTs will not transport unresponsive patients.
Because Nurse Harris was the first nurse to arrive
on the scene, she became the “team leader” with primary responsibility for directing Sandoval’s treatment. The evidence shows that even though Harris
was told several times to call paramedics because
Sandoval was unresponsive, she refused to do so.
Deputy Andrade, who happened to be a trained
EMT, asked two or three times for paramedics to be

App. 8
called. Harris did not do so. Nurse Llamado says that
she directly told Harris, “He has to go out 9-1-1,” meaning that paramedics were needed. Harris responded,
“No, EMT.” Llamado then telephoned the charge nurse,
Shirley Bautista, who also said that paramedics should
be summoned. Llamado put the phone down and told
Harris, “Shirley said he has to go now 9-1-1.” Despite
all of this, Harris still refused to call paramedics.3
It is undisputed that EMTs were initially summoned instead of paramedics. When the EMTs arrived
around 1:20 a.m., they informed the nurses and deputies that “they would not be able to transport Sandoval
in the current condition he was in.” Paramedics were
then called and arrived at 1:42 a.m.—47 minutes after
Sandoval was first observed to be unresponsive and
seizing. According to Deputy Andrade, Sandoval still
had a pulse when the paramedics arrived. But he lost
his pulse when he was transferred to a gurney. Resuscitation efforts failed, and Sandoval was pronounced
dead at 2:11 a.m.
During discovery, it was revealed that Nurse Harris did not know on the night of the incident that only
paramedics, and not EMTs, could provide the ACLS
treatment that Sandoval required—even though this
was common knowledge among nurses. Nurse Llamado
3

Harris denies that Deputy Andrade and Nurse Llamado
told her to call paramedics, and contends that she did not believe
paramedics were necessary because, in her view, Sandoval was
responsive, communicative, and breathing on his own. On summary judgment, we must accept Andrade and Llamado’s very different version of events.

App. 9
later admitted that she should have called paramedics
herself when Harris refused to do so, and that she had
“learned [her] lesson.”
B.
Sandoval’s wife, Ana Sandoval, filed this suit in
California state court against Nurses de Guzman, Harris, and Llamado, and the County of San Diego. The
complaint alleged that the individual nurses had violated the Fourteenth Amendment by failing to provide
Sandoval adequate medical care, and that the County
was likewise liable because its policy of using MOC1
as a mixed used cell, without proper communication
protocols, created the confusion among the medical
staff that led to Sandoval’s death. The complaint also
asserted several state law claims.4
The defendants removed the case to federal court
and later moved for summary judgment. For reasons
discussed in more depth below, the district court
granted summary judgment to the defendants on the
constitutional claims brought under 42 U.S.C. § 1983
and declined to exercise supplemental jurisdiction over
the state law claims. Plaintiff timely appealed.

4

Sandoval’s children Ronnie Sandoval Jr. and Josiah Sandoval were named as additional plaintiffs on some of the state law
claims, but not on the constitutional claims under § 1983.

App. 10
II.
We have jurisdiction under 28 U.S.C. § 1291. We
review the district court’s grant of summary judgment
de novo. “Summary judgment is appropriate when,
with the evidence viewed in the light most favorable to
the non-moving party, there are no genuine issues of
material fact, so that the moving party is entitled to
judgment as a matter of law.” Wilk v. Neven, 956 F.3d
1143, 1147 (9th Cir. 2020) (citation omitted); Fed. R.
Civ. P. 56(a). “Evidentiary rulings made in the context
of summary judgment motions are reviewed for abuse
of discretion. . . .” Bias v. Moynihan, 508 F.3d 1212,
1224 (9th Cir. 2007).
III.
Before discussing the merits, we address a significant evidentiary ruling by the district court. During
briefing on the motion for summary judgment, the
nurses and the County submitted boilerplate one-word
objections for “relevance,” “hearsay,” and “foundation”
to several pieces of evidence important to Plaintiff ’s
case, including the report of Plaintiff ’s medical expert,
the police reports of deputies at the scene, and the San
Diego County Sheriff ’s Medical Services’ standardized
nursing procedures for treating seizures. The district
court sustained all of these objections in a one-sentence ruling that read in full: “Defendants’ evidentiary
objections, to which Plaintiffs did not respond, are sustained.” This decision, which had the effect of striking

App. 11
crucial evidence from the summary judgment record,
was an abuse of discretion.
The defendants’ failure to explain their one-word
objections, and the district court’s failure to explain its
ruling, makes it difficult to know precisely why the
court concluded that the evidence was inadmissible.
But on the record before us, it appears the objections
were meritless, if not downright frivolous.
To begin, objections for relevance are generally unnecessary on summary judgment because they are “duplicative of the summary judgment standard itself.”
Burch v. Regents of Univ. of Cal., 433 F. Supp. 2d 1110,
1119 (E.D. Cal. 2006) (Shubb, J.). On summary judgment, a court must determine whether the evidence
viewed in the light most favorable to the non-moving
party creates a “genuine dispute as to any material
fact” that must be resolved at trial. Fed. R. Civ. P. 56(a).
And under Federal Rule of Evidence 401, evidence is
relevant if it “has any tendency to make a fact more or
less probable” and that fact “is of consequence in determining the action.” Fed. R. Evid. 401. Putting these two
standards together, if evidence submitted on summary
judgment could create a genuine dispute of material
fact, it is, by definition, “of consequence in determining
the action,” and therefore relevant. Id. Conversely, if
the submitted evidence does not create a genuine dispute of material fact, there is no need for the court to
separately determine whether it is relevant because,
even assuming it is not, it will not affect the ultimate
summary judgment ruling. We therefore agree with
Judge Shubb’s cogent observation that parties briefing

App. 12
summary judgment motions would be better served to
“simply argue” the import of the facts reflected in the
evidence rather than expending time and resources
compiling laundry lists of relevance objections. Burch,
433 F. Supp. 2d at 1119.
In any event, the relevance objections here plainly
lacked merit. For example, the objected-to police reports provide the deputies’ first-hand observations
of Sandoval’s condition, and the objected-to report of
Plaintiff ’s medical expert is essential to her ability to
show that Sandoval would not have died if not for the
defendants’ failure to provide adequate care. This evidence goes to the central issues in the case and is
therefore more than sufficient to clear the low bar of
relevance.5 See Fed. R. Evid. 401.
We reach the same conclusion with regard to the
hearsay objections. Because the defendants did not explain these objections, we are largely reduced to guessing at the arguments underlying them. One possibility
is that the defendants objected on the ground that the
documents themselves would not be admissible at trial
5

The defendants provided an explanation for only one of
their several objections, but in a twist of irony, that explanation
makes clear that the objection lacked merit. The defendants objected to the Sheriff ’s Department Medical Services Standardized
Nursing Procedure on Seizure Disorder on the ground that
“Nurse Harris determined that [Sandoval] was not having a seizure.” But whether Nurse Harris knew Sandoval was having a
seizure is a hotly disputed issue in this case. It goes without saying that a district court evaluating an objection on summary judgment cannot simply accept the moving party’s version of disputed
facts when determining which evidence is relevant.

App. 13
because they are out-of-court statements offered for
their truth. See Fed. R. Evid. 801(c), 802. But “[a]t the
summary judgment stage, we do not focus on the admissibility of the evidence’s form. We instead focus on
the admissibility of its contents.” Fraser v. Goodale, 342
F.3d 1032, 1036 (9th Cir. 2003); see Fed. R. Civ. P.
56(c)(2). If the contents of a document can be presented
in a form that would be admissible at trial—for example, through live testimony by the author of the document—the mere fact that the document itself might be
excludable hearsay provides no basis for refusing to
consider it on summary judgment. Fraser, 342 F.3d at
1036-37 (holding that the plaintiff ’s diary could be considered on summary judgment because she could testify consistent with its contents at trial).
Here, the objected-to documents either reflect the
personal knowledge of individuals who could be called
to testify at trial or will likely be admissible at trial
under exceptions to the hearsay rule. For example,
Plaintiff ’s expert witnesses can testify about the opinions expressed in their expert reports, and the deputies
and medical examiner can testify about the personal
observations reflected in their official reports. See id.
To the extent the police reports recount statements
made by the defendants in this case, they would be
admissible as non-hearsay statements of a party opponent. See Fed. R. Evid. 801(d)(2). Hearsay therefore provided no basis for excluding the objected-to
documents in their entirety. And to the extent the defendants intended to object to only parts of the documents, their unexplained generalized objections were

App. 14
insufficient to raise such an objection. See Fed. R. Evid.
103(a)(1)(B); United States v. Holland, 880 F.2d 1091,
1095 (9th Cir. 1989) (“Holland’s blanket objection to
the admission of the tape does not preserve an objection to failure to redact the tape.”).
As for the foundation objections, “an objection to
admission of evidence on foundational grounds must
give the basis for objection in a timely way to permit
the possibility of cure.” Jerden v. Amstutz, 430 F.3d
1231, 1237 (9th Cir. 2005); accord 21 Charles Alan
Wright & Arthur R. Miller, Federal Practice and Procedure § 5036.7 (2d ed. 2020 update). The defendants’
one-word objections for “foundation” fell well short of
providing Plaintiff with notice of the specific ground of
objection and, consequently, what could be done to cure
any defects. Accordingly, these objections also provided
no basis for excluding the evidence.
In an attempt to justify the district court’s evidentiary ruling, the defendants point to a local rule of the
District Court for the Southern District of California
that provides that the failure to file timely opposition
papers “may constitute a consent to the granting of a
motion or other request for ruling by the court.” See
S.D. Cal. Local Rule 7.1.f.3.c. It is not clear that this
rule applies to a failure to file a written response to
evidentiary objections.6 But in any event, the district
6

Southern District of California Local Rule 7.1.f.3.c provides
that when a party “fails to file [opposition] papers in a manner
required by Civil Local Rule 7.1.e.2,” the court may grant the
opposing party’s request. S.D. Cal. Local Rule 7.1.f.3.c. The referenced rule—Rule 7.1.e.2, which sets the time for filing an

App. 15
court did not mention this rule or any other in sustaining the defendants’ objections, and we will not simply
assume that it formed the basis for the evidentiary ruling.7
Because we conclude that the district court abused
its discretion by summarily sustaining the defendants’
meritless—indeed frivolous—evidentiary objections,
we will consider that evidence.
IV.
Turning to the merits, we begin with a brief history of constitutional claims based on inadequate medical care, which, for reasons that will become apparent,
provides important context for understanding the issues presented by this case.

opposition—applies only to “motion[s], application[s], or order[s]
to show cause.” S.D. Cal. Local Rule 7.1.e.2. It is not clear that
evidentiary objections submitted in conjunction with a reply brief
in support of a motion for summary judgment constitute a “motion” or “application” within the meaning of the rule. Other provisions of Local Rule 7.1 are ambiguous on this point.
7
We therefore have no occasion to address whether applying
this local rule rigidly would amount to an abuse of discretion
where, as here, it would effectively prevent a plaintiff from satisfying her burden on summary judgment. See Ghazali v. Moran,
46 F.3d 52, 53-54 (9th Cir. 1995) (per curiam) (explaining the factors a district court must consider when applying a local rule
would result in the dismissal of a case).

App. 16
A.
Individuals in state custody have a constitutional
right to adequate medical treatment. See Estelle v.
Gamble, 429 U.S. 97, 104-05 (1976). For inmates serving custodial sentences following a criminal conviction,
that right is part of the Eighth Amendment’s guarantee against cruel and unusual punishment. Id. However, pretrial detainees have not yet been convicted of
a crime and therefore are not subject to punishment by
the state. Accordingly, their rights arise under the
Fourteenth Amendment’s Due Process Clause. Bell v.
Wolfish, 441 U.S. 520, 535-36, 335 n.16 (1979).
Claims brought by convicted prisoners under the
Eighth Amendment are governed by what we have
called a “subjective deliberate indifference” standard.
Gordon, 888 F.3d at 1122; see Edmo v. Corizon, Inc.,
935 F.3d 757, 786 (9th Cir. 2019) (per curiam), cert. denied sub nom. ID DOC, et al. v. Edmo, No. 19-1280,
2020 WL 6037411 (U.S. Oct. 13, 2020). Under this
standard, a prison official will be liable for disregarding an inmate’s serious medical needs only if he was
both “aware of facts from which the inference could be
drawn that a substantial risk of serious harm exists”
and actually “dr[e]w the inference.” Peralta v. Dillard,
744 F.3d 1076, 1086 (9th Cir. 2014) (en banc) (quoting
Farmer v. Brennan, 511 U.S. 825, 837 (1994)). Thus, a
prison official who “should have been aware” of a medically related risk to an inmate, but in fact was not,
“has not violated the Eighth Amendment, no matter
how severe the risk.” Id. (quoting Gibson v. Cnty. of
Washoe, 290 F.3d 1175, 1188 (9th Cir. 2002)).

App. 17
Because pretrial detainees “retain at least those
constitutional rights that we have held are enjoyed by
convicted prisoners,” Bell, 441 U.S. at 545, we have
sometimes looked to the Eighth Amendment as a
starting point for determining the rights of pretrial
detainees under the Fourteenth Amendment. Carnell
v. Grimm, 74 F.3d 977, 979 (9th Cir. 1996) (“[T]he
[E]ighth [A]mendment guarantees provide a minimum
standard of care for determining a prisoner’s rights as
a pretrial detainee, including the prisoner’s rights to
medical care.” (emphasis removed and cleaned up)).
And in the context of claims of inadequate medical
care, we had previously concluded that the Eighth
Amendment and Fourteenth Amendment standards
were precisely the same. See, e.g., Simmons v. Navajo
Cnty., 609 F.3d 1011, 1017 (9th Cir. 2010). That is, to
succeed on a claim of inadequate medical care, both
convicted prisoners and pretrial detainees were required to establish subjective deliberate indifference
on the part of the defendant. Id.
The Supreme Court’s decision in Kingsley v. Hendrickson, 576 U.S. 389 (2015), however, cast doubt on
our practice of evaluating Eighth Amendment and
Fourteenth Amendment claims under the same standard. Kingsley involved claims that jail officials had
used excessive force against a pretrial detainee. Id. at
391. When such claims are brought by convicted prisoners under the Eighth Amendment, liability turns on
“whether force was applied in a good faith effort to
maintain or restore discipline.” Whitley v. Albers, 475
U.S. 312, 320 (1986) (citation omitted); see also Hoard

App. 18
v. Hartman, 904 F.3d 780, 787-88 (9th Cir. 2018). The
question presented in Kingsley was whether the Eighth
Amendment subjective good faith standard also applies to Fourteenth Amendment excessive force claims
brought by pretrial detainees. 576 U.S. at 391-92.
The Court held that the Eighth Amendment and
Fourteenth Amendment standards were not the same.
Id. at 400 (“The language of the two Clauses differs,
and the nature of the claims often differs.”). It concluded that for Fourteenth Amendment claims, the relevant question is not whether the defendant acted in
good faith, but instead whether the force used was “objectively unreasonable.” Id. at 396-97.
Recognizing that Kingsley called into question our
practice of applying Eighth Amendment standards to
other varieties of Fourteenth Amendment claims
brought by pretrial detainees, we addressed the issue
en banc in Castro v. County of Los Angeles, 833 F.3d
1060 (9th Cir. 2016). In Castro, a pretrial detainee alleged that prison officials had failed to protect him
from violence at the hands of another inmate placed in
his cell. Id. at 1064. We were mindful that when such
failure-to-protect claims are brought by convicted prisoners under the Eighth Amendment, they are governed by a subjective deliberate indifference standard
similar to the one that applies to claims of inadequate
medical care. Id. at 1067-68.
However, in Castro, we concluded that while we had
previously also applied the Eighth Amendment failureto-protect standard to similar Fourteenth Amendment

App. 19
claims brought by pretrial detainees, we could no
longer do so after Kingsley. Id. at 1069-70. We held instead that Fourteenth Amendment failure-to-protect
claims should be analyzed under an objective framework, under which the critical question is whether the
defendant failed to take reasonable measures to abate
a serious risk of harm to an inmate “even though a reasonable officer in the circumstances would have appreciated the high degree of risk involved—making the
consequences of the defendant’s conduct obvious.” Id.
at 1071.
This was the state of the law at the time the district court ruled on the summary judgment motion
here. Citing Castro, Plaintiff argued in the district
court that an objective standard should apply to her
Fourteenth Amendment claim that the defendants
failed to provide Sandoval with adequate medical care.
But the district court concluded that Castro, which had
specifically addressed only failure-to-protect claims,
had not overruled Ninth Circuit precedent applying
the Eighth Amendment subjective deliberate indifference standard to inadequate medical care claims
brought by pretrial detainees. Accordingly, the district
court applied that subjective standard to Plaintiff ’s
claims and granted summary judgment in favor of the
defendants.
After the district court’s ruling, however, we issued
our opinion in Gordon, which made clear that Castro
and Kingsley had in fact displaced our prior precedent
for claims brought by pretrial detainees alleging inadequate medical care. Gordon, 888 F.3d at 1124-25. In

App. 20
Gordon, we adopted an objective framework for such
claims that mirrored the framework Castro had adopted
for failure-to-protect claims. Id. Under that standard,
pretrial detainees alleging that jail officials failed to
provide constitutionally adequate medical care must
show:
(1) The defendant made an intentional decision with respect to the conditions under
which the plaintiff was confined [including a decision with respect to medical
treatment];
(2) Those conditions put the plaintiff at substantial risk of suffering serious harm;
(3) The defendant did not take reasonable
available measures to abate that risk,
even though a reasonable official in the
circumstances would have appreciated
the high degree of risk involved—making
the consequences of the defendant’s conduct obvious; and
(4) By not taking such measures, the defendant caused the plaintiff ’s injuries.
Id. at 1125. To satisfy the third element, the plaintiff
must show that the defendant’s actions were “objectively unreasonable,” which requires a showing of
“more than negligence but less than subjective intent—something akin to reckless disregard.” Id. (quoting Castro, 833 F.3d at 1071).
In light of our holding in Gordon, it is clear that
the district court here erred by applying the subjective

App. 21
deliberate indifference standard to Plaintiff ’s Fourteenth Amendment claim. Because the parties have
briefed Gordon’s objective framework on appeal, we
apply it here.
B.
Beginning with Nurse de Guzman, the evidence
viewed in the light most favorable to Plaintiff shows
that Deputy Chavez told de Guzman that Sandoval
was sweating, tired, and disoriented. Deputy Chavez
insisted that he told de Guzman, “There [is] still something going on [with Sandoval] so you need to look at
him more thoroughly.” Despite receiving this information, de Guzman did nothing more than administer
a duplicative blood sugar test—a test de Guzman admitted took only about ten seconds. Without conducting any further evaluation, de Guzman then told
deputies that Sandoval was cleared for booking.
When the deputies left Sandoval in MOC1, de
Guzman asked them if Sandoval could “go into a sobering tank.” A jury could conclude, based on this statement, that de Guzman suspected Sandoval was under
the influence of drugs or alcohol. Yet although de Guzman knew that Sandoval remained in MOC1, which
was only 20 feet away from the nursing station, he
failed to check on Sandoval at any point during the remaining six hours of his shift. Worse still, when his
shift was over, de Guzman did not relay any information about Sandoval to the nurses who replaced
him. This left the night shift nurses with no way of

App. 22
knowing that Sandoval was being held in MOC1 for
medical reasons.
Applying the Gordon framework, a jury could conclude that a reasonable nurse who was told that Sandoval was shaking, tired, and disoriented—and who was
specifically directed by a deputy to evaluate Sandoval
“more thoroughly”—would have understood that Sandoval faced a “substantial risk of suffering serious
harm.” Gordon, 888 F.3d at 1125. Sweating and being
so disoriented that officers observe and comment about
it are not everyday conditions. A jury could further conclude that de Guzman’s actions toward Sandoval—
which were limited to administering a quick blood test
and then ignoring Sandoval for the remaining six
hours of his shift—were “akin to reckless disregard.”
Id. De Guzman is therefore not entitled to summary
judgment on liability.
C.
We reach the same conclusion for the claims
against Nurses Harris and Llamado.
There can be no debate that a reasonable nurse
would understand that an individual who is unresponsive and seizing faces a substantial risk of suffering serious harm. Thus, the question with regard to Nurses
Harris and Llamado is whether a jury could find that
their failure to promptly call paramedics was objectively unreasonable.

App. 23
On summary judgment, we must accept the extensive evidence that all reasonable nurses would know
that only paramedics, not EMTs, had the training
necessary to allow them to transport patients in
Sandoval’s condition. This is reflected in the Sheriff ’s
Department Medical Services Division Policy and Procedure Manual, which lists “status epilepticus”—i.e. a
severe seizure—as a condition that “require[s] 911 Paramedic Emergency Response.” And it is echoed by Deputy Andrade (a trained EMT) and Nurse Llamado, who
testified that they told Nurse Harris during the incident that paramedics were needed because EMTs
could not transport unresponsive patients. Indeed,
Llamado later admitted that she should have called
paramedics herself when Harris refused to do so. This
evidence is more than sufficient to allow a jury to find
that Llamado and Harris’s failure to summon paramedics was objectively unreasonable. See Gordon, 888
F.3d at 1125.
Arguing that they are entitled to summary judgment, Nurses Harris and Llamado point to cases in
which we have held that “a difference of medical opinion regarding . . . treatment” does not amount to a constitutional violation. See Sanchez v. Vild, 891 F.2d 240,
242 (9th Cir. 1989); see also Toguchi v. Chung, 391 F.3d
1051, 1058 (9th Cir. 2004). These cases applied the
Eighth Amendment subjective deliberate indifference standard and therefore are of limited relevance
to the Fourteenth Amendment claims here. But even
under the Eighth Amendment standard, a defendant
can be held liable for actions that were “medically

App. 24
unacceptable under the circumstances.” Toguchi, 391
F.3d at 1058 (internal quotation marks and citation
omitted). Here, there is ample evidence from which a
jury could conclude that promptly calling paramedics
was the only medically acceptable option.8
Finally, to the extent Nurses Harris and Llamado
argue that Sandoval would not have survived even if
they had promptly summoned paramedics, Plaintiff ’s
expert, Dr. Michael Falgiani, opined that it was more
likely than not that Sandoval’s life could have been
saved if he “had been taken to an emergency department at any time during the time he was in Central
Jail up to the time that he lost pulses and went into
cardiac arrest.” And according to Deputy Andrade,
Sandoval still had a pulse when the paramedics first
arrived. Crediting Dr. Falgiani’s opinion, and taking
Deputy Andrade’s account as true, a jury could find
that Sandoval would not have died but for the delay in
calling paramedics.
In sum, viewing the evidence in the light most favorable to Plaintiff, there are triable issues of fact on
the claims against each of the individual nurses. Accordingly, the nurses are not entitled to summary judgment on liability.
8

Nurse Harris’s arguments to the contrary rest in large part
on her assertions that Sandoval “did not have any of the symptoms commonly associated with seizures” and that she “could not
have anticipated” that EMTs would not transport Sandoval. Both
of these propositions are contradicted by evidence in the record.
They therefore serve only to support our view that summary judgment was inappropriate.

App. 25
V.
We now turn to whether the nurses are entitled to
qualified immunity.
“Qualified immunity balances two important interests—the need to hold public officials accountable
when they exercise power irresponsibly and the need
to shield officials from harassment, distraction, and liability when they perform their duties reasonably.”
Pearson v. Callahan, 555 U.S. 223, 231 (2009). In determining whether a state official is entitled to qualified
immunity in the context of summary judgment, we
consider (1) whether the evidence viewed in the light
most favorable to the plaintiff is sufficient to show a
violation of a constitutional right and (2) whether that
right was “clearly established at the time of the violation.” Horton by Horton v. City of Santa Maria, 915 F.3d
592, 599 (9th Cir. 2019) (citing Pearson, 555 U.S. at
232).
A.
We begin with whether the shift in the legal
framework governing Plaintiff ’s claims—from subjective deliberate indifference to objective unreasonableness—has any bearing on the qualified immunity
analysis. The nurses argue, and the dissent agrees,
that in determining whether the nurses are entitled to
qualified immunity, we must apply all elements of an
inadequate medical care claim exactly as they stood at
the time of the incident at issue here, including the
subjective deliberate indifference requirement. But we

App. 26
have already rejected this approach in Horton by Horton v. City of Santa Maria. 915 F.3d at 599-603. Under
Horton, when we assess qualified immunity for a claim
of inadequate medical care of a pre-trial detainee arising out of an incident that took place prior to Gordon,
we apply the current objective deliberate indifference
standard to analyze whether there was a constitutional violation, id. at 602, and “concentrate on the objective aspects of the [pre-Gordon] constitutional
standard” to evaluate whether the law was clearly established, id. at 600.
To fully understand Horton, we must first address
Estate of Ford v. Ramirez-Palmer, 301 F.3d 1043 (9th
Cir. 2002). Jeffrey Ford was killed by his cellmate,
James Diesso, who had a history of violent behavior
against other prisoners. Id. at 1045-47. Ford’s family
and estate brought an Eighth Amendment deliberate
indifference claim against the correctional officers who
allowed Diesso to be housed with Ford. Id. at 1047-48.
The district court concluded that genuine issues of material fact existed as to whether the officers were aware
of Diesso’s history of violence. Id. at 1048. Because our
circuit had “held in Hamilton v. Endell, 981 F.2d 1062
(9th Cir.1992), that a finding of deliberate indifference
(or of a triable issue as to it) necessarily precludes a
finding of qualified immunity,” id. at 1045, the district
court denied qualified immunity, id. at 1048. On appeal, the Ford panel reversed, concluding “that Hamilton, which collapse[d] the deliberate indifference part
of the constitutional inquiry into the qualified immunity inquiry, ha[d] been undermined by Saucier [v. Katz,

App. 27
533 U.S. 194 (2001), overruled on other grounds by
Pearson, 555 U.S. 223],” id. at 1050, because the “key
point” in Saucier “is that the qualified immunity inquiry is separate from the constitutional inquiry,” id.
at 1049.
We further explained that “the qualified immunity
inquiry ‘has a further dimension.’ ” Id. (quoting Saucier, 533 U.S. at 205). That dimension is the clearly established law inquiry, which allows “ ‘all but the plainly
incompetent or those who knowingly violate the law’
[to] have immunity from suit.” Id. (quoting Saucier,
533 U.S. at 202). However, we noted that “[w]hile
Eighth Amendment claims depend in part on a subjective test that does not fit easily with the qualified immunity inquiry, there is an objective component as
well. To violate the Eighth Amendment, the deprivation alleged must objectively be sufficiently serious.” Id.
If the law at the time of an alleged violation did not
clearly establish that the specific situation faced by an
officer was sufficiently serious, “a reasonable prison official understanding that he cannot recklessly disregard a substantial risk of serious harm, could know all
of the facts yet mistakenly, but reasonably, perceive
that the exposure in any given situation was not that
high.” Id. at 1050. Thus, the “dispositive inquiry” in the
clearly-established analysis is “whether it would be
clear to a reasonable officer that his conduct was unlawful in the situation he confronted,” based on the law
at the time. Id. (quoting Saucier, 533 U.S. at 202) (emphasis added).

App. 28
Turning to the Estate of Ford facts, we concluded
that “if any of the officers knew that Diesso was acting
out dangerously with cellmates or that he was a threat
to Ford but housed Ford with him anyway, this would
violate the Eighth Amendment.” Id. Nonetheless, the
officers were entitled to qualified immunity, because no
law at the time of the incident “fleshed out ‘at what
point a risk of inmate assault becomes sufficiently substantial for Eighth Amendment purposes.’ ” Id. at 1051
(quoting Farmer, 511 U.S. at 834 n.3). Therefore, “we
c[ould not] say that a reasonable correctional officer
would have clearly understood that the risk of serious
harm was so high that he should not have authorized
the double-celling.” Id.
Horton built upon Estate of Ford’s rationale.
There, an officer left Horton, a pre-trial detainee, alone
in his jail cell for a prolonged period of time, despite
having been warned by Horton’s mother in a phone call
that he was a suicide risk. Horton, 915 F.3d at 597-98.
After turning to some paperwork, the officer went to
check on Horton and found him hanging from the cell
door, unmoving. Although Horton survived, the delay
in treatment led to severe and permanent brain damage. The law at the time of the incident was the preGordon deliberate indifference standard. Id. at 599.
Relying on Estate of Ford, we observed that “deliberate
indifference claims [under the pre-Gordon standard]
‘depend in part on a subjective test that does not fit
easily with the qualified immunity inquiry,’ which is an
objective inquiry.” Id. (quoting Estate of Ford, 301 F.3d
at 1050); see also Harlow v. Fitzgerald, 457 U.S. 800,

App. 29
817-18 (1982) (explaining that qualified immunity examines “the objective reasonableness of an official’s
conduct, as measured by reference to clearly established law”). Therefore, “even where the clearly established legal standard requires [subjective] deliberate
indifference, the qualified immunity inquiry should
concentrate on the objective aspects of the constitutional standard.” Horton, 915 F.3d at 600.
Thus, the officer would enjoy qualified immunity
unless Horton demonstrated that, “given the available
case law at the time of his attempted suicide, a reasonable officer, knowing what [the officer] knew, would
have understood that failing to check on Horton immediately after the phone call with [Horton’s mother] presented such a substantial risk of harm to Horton that
the failure to act was unconstitutional.” Id. As in Estate of Ford, we concluded that the officer was entitled
to qualified immunity, because “the case law at the
time of Horton’s attempted suicide was simply too
sparse, and involved circumstances too distinct from
those [of Horton], to establish that a reasonable officer
would perceive a substantial risk that Horton would
imminently attempt suicide.” Id. at 601-02.
After determining that the officer was entitled to
qualified immunity because the law was not clearly established that the officer’s failure to immediately act
upon the suicide warning violated the constitutional
right to adequate medical care, it was unnecessary for
us to reach the question whether a constitutional violation had actually occurred, and we declined to do so.
Id. at 602. However, we explicitly recognized that were

App. 30
we required to address whether the officer’s conduct
violated the constitution, the Gordon objective standard would “guide our analysis of whether a constitutional violation occurred.” Id. This was because in
Gordon we had “recently recognized that Castro’s objective deliberate indifference standard extends to
Fourteenth Amendment claims by pretrial detainees
for violations of the right to adequate medical care.” Id.
The rule of Horton, aside from the fact that it is
controlling precedent, makes sense. The purpose of determining whether there has been a constitutional violation has always been to “further the development of
constitutional precedent.” Pearson, 555 U.S. at 237; see
also Saucier, 533 U.S. at 201. It would run counter to
that goal to apply the pre-Gordon standard now, because “no purpose would be served for future cases
from delineating the application of that standard to
the constitutional merits of this case.” Horton, 915 F.3d
at 602.9
Horton’s recognition that the objective deliberate
indifference standard applies even when the incident
9

The dissent misreads Horton to conclude that the subjective element of the pre-Gordon standard governs the analysis of
whether the nurses violated Sandoval’s clearly established constitutional right to adequate medical care. Dissent at 58-59. In
Horton, we simply observed that there was no purpose in analyzing the issue of whether, applying the Gordon objective deliberate
indifference standard, there was a constitutional violation, as the
Horton court had already determined that the law as to the need
for immediate care of a potential suicide victim was not clearly
established, and thus the officers were entitled to qualified immunity in any event. 915 F.3d at 602.

App. 31
occurred pre-Gordon comports with the purpose underlying the clearly established law requirement. As
the Supreme Court has explained, this requirement
is designed to “give[ ] government officials breathing
room to make reasonable but mistaken judgments
about open legal questions.” Ashcroft v. al-Kidd, 563
U.S. 731, 743 (2011). “[T]he focus is on whether the [defendant] had fair notice that her conduct was unlawful. . . .” Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018)
(per curiam) (quoting Brosseau v. Haugen, 543 U.S.
194, 198 (2004) (per curiam)). Thus, as the Supreme
Court has often repeated, the defense of qualified immunity protects “all but the plainly incompetent or
those who knowingly violate the law.” Ziglar v. Abbasi,
137 S. Ct. 1843, 1867 (2017) (quoting Malley v. Briggs,
475 U.S. 335, 341 (1986)).
Because the premise of qualified immunity is that
state officials should not be held liable for money damages absent fair warning that their actions were unconstitutional, the clearly established law standard
“requires that the legal principle clearly prohibit the
[defendant’s] conduct in the particular circumstances
before him.” District of Columbia v. Wesby, 138 S. Ct.
577, 590 (2018). This inquiry is an objective one that
compares the factual circumstances faced by the defendant to the factual circumstances of prior cases to
determine whether the decisions in the earlier cases
would have made clear to the defendant that his conduct violated the law. See e.g., Abbasi, 137 S. Ct. at
1866 (“Whether qualified immunity can be invoked
turns on the ‘objective legal reasonableness’ of the

App. 32
official’s acts.” (citation omitted)); Harlow, 457 U.S. at
819 (qualified immunity “turn[s] primarily on objective
factors”). The focus is on the standards governing the
defendant’s conduct, not legal arcana. See Saucier, 533
U.S. at 202-03 (if “various courts have agreed that certain conduct is a constitutional violation under facts
not distinguishable in a fair way from the facts presented in the case at hand, the officer would not be entitled to qualified immunity based simply on the
argument that courts had not agreed on one verbal formulation of the controlling standard”).
Consistent with this purpose, the qualified immunity analysis remains objective even when the constitutional claim at issue involves subjective elements.
Crawford-El v. Britton, 523 U.S. 574, 588-89 (1998)
(“[A]lthough evidence of improper motive is irrelevant
on the issue of qualified immunity, it may be an essential component of the plaintiff ’s affirmative case.”).
Thus, in the Eighth Amendment deliberate indifference context, we have recognized that “a reasonable
prison official understanding that he cannot recklessly
disregard a substantial risk of serious harm, could
know all of the facts yet mistakenly, but reasonably,
perceive that the exposure in any given situation was
not that high. In these circumstances, he would be entitled to qualified immunity.” Estate of Ford, 301 F.3d
at 1050. We are not aware of a single case in which we
have examined the defendant’s mental state in assessing the clearly established law prong of qualified
immunity.

App. 33
Several other circuits have concluded, as we did in
Horton, that because the clearly established law prong
focuses objectively on whether it would be clear that
the defendant’s conduct violated the Constitution, lack
of notice regarding the mental state required to establish liability has no bearing on the analysis.
Take, for example, the Seventh Circuit’s decision
on remand from the Supreme Court in Kingsley itself.
See Kingsley v. Hendrickson, 801 F.3d 828 (7th Cir.
2015) (per curiam) (“Kingsley II”). At the trial that took
place before the case reached the Supreme Court, the
district court’s instructions on the excessive force
claims “suggested the jury should weigh [the defendants’] subjective reasons for using force and subjective
views about the excessiveness of the force.” Kingsley,
576 U.S. at 403-04. Under that standard, the jury found
in the defendants’ favor. Id. at 394. The Supreme Court
later concluded, however, that the standard should
have been objective unreasonableness. Id. at 392. On
remand, the Kingsley defendants advanced a view of
qualified immunity similar to the one the nurses offer
here. They argued that because the Supreme Court’s
decision had “altered the substantive law of liability,”
their liability should not be assessed under the new objective unreasonableness standard, which had not
been clearly established at the time of the incident in
the case. Kingsley II, 801 F.3d at 831.
In addressing this argument, the Seventh Circuit
first concluded that prior cases had clearly established
that the force used by the officers was excessive—i.e.,
that their conduct was unlawful. Id. at 832. It then

App. 34
turned to the defendants’ argument that they were
nevertheless entitled to qualified immunity because
the standard had changed from subjective awareness
to objective unreasonableness during the course of the
litigation. Id. 832-33. Rejecting this position, the Seventh Circuit explained that it “would untether the
qualified immunity defense from its moorings of protecting those acting in reliance on a standard that is
later determined to be infirm.” Id. at 832. Reliance interests were not implicated there, it said, because before and after the Supreme Court’s decision, “the
standards for the amount of force that c[ould] be permissibly employed remain[ed] the same.” Id. The Seventh Circuit concluded that to decide otherwise would
require it “to accept the dubious proposition that, at
the time the officers acted, they were on notice only
that they could not have a reckless or malicious intent
and that, as long as they acted without such an intent,
they could apply any degree of force they chose.” Id. at
833. It declined to do so. Id.
Like the Seventh Circuit, the Sixth Circuit has rejected the argument that defendants facing claims of
excessive force based on pre-Kingsley conduct are entitled to qualified immunity simply because it would
not have been clear at the time of their unconstitutional conduct that any claims against them would
be governed by an objective standard. Hopper v.
Plummer, 887 F.3d 744, 755-56 (6th Cir. 2018). As the
court there explained, “a defendant is not entitled to
qualified immunity simply because the courts have not
agreed upon the precise formulation of the applicable

App. 35
standard. Rather, the relevant question under the
clearly established prong is whether defendants had
notice that their conduct was unlawful in the situation
they confronted.” Id. (emphasis added, internal citations omitted, and cleaned up). The First and Fifth
Circuits have reached similar conclusions. MirandaRivera v. Toledo-Davila, 813 F.3d 64, 72-73 (1st Cir.
2016) (Ninth Circuit Judge Hawkins, sitting by designation) (holding that despite uncertainty about the
governing legal standard, the defendants were not entitled to qualified immunity because “a reasonable officer would have known that using force in the way
that the officers here appear to have done in the particular factual circumstances that they encountered violated [the plaintiff ’s] constitutional rights”); Dyer v.
Houston, 964 F.3d 374, 384 (5th Cir. 2020) (concluding
that confusion in the case law about whether subjective intent was required to prove an inadequate medical care claim did not mean the defendants were per se
entitled to qualified immunity, and that “the district
court was still required to analyze whether the [defendants’] alleged conduct contravened clearly established law”).
Rather than sticking to our settled approach, the
dissent would, for the first time, drag a subjective element into the question of whether a defendant violated
clearly established law. For example, the dissent concludes Nurse de Guzman is entitled to qualified immunity—regardless of whether it would have been
clear to every reasonable nurse that his conduct was
unlawful—because there is, supposedly, insufficient

App. 36
evidence that de Guzman subjectively understood that
Sandoval faced a serious medical need.10 Dissent at 6568.
This radical reimagination of qualified immunity
would produce results directly contrary to the purposes served by the doctrine—giving “government officials breathing room to make reasonable but mistaken
judgments about open legal questions,” al-Kidd, 563
U.S. at 743, while at the same time ensuring that a
plaintiff can recover damages from a defendant who
acts so unreasonably in light of established case law
that he is appropriately described as “plainly incompetent,” Abbasi, 137 S. Ct. at 1867. Consider how the dissent’s approach would play out in practice. Here, there
is no dispute that the objective unreasonableness
standard from Gordon governs the merits of Plaintiff ’s
claims. Thus, had the nurses not raised a qualified immunity defense, presumably even the dissent would
agree that objective unreasonableness alone would be
sufficient to establish their liability.11 Yet the dissent

10

As discussed below, infra note 16, this conclusion is incorrect even on its own terms, viewing the facts in the light most
favorable to plaintiff, as we must on summary judgment.
11
Or, perhaps not. It is not clear the dissent appreciates that
the affirmative defense of qualified immunity is distinct from the
merits of the plaintiff ’s constitutional claim. See Estate of Ford,
301 F.3d at 1049. While the plaintiff ’s claim may have subjective
elements, as inadequate medical care claims did before Gordon,
the clearly established law inquiry is always an objective one that
looks to whether it would have been clear to a reasonable person
in the defendant’s position that his conduct was unlawful. Horton,
915 F.3d at 600. Here, the subjective aspect of Plaintiff ’s claim

App. 37
would use qualified immunity, a defense designed “to
shield officials . . . when they perform their duties reasonably,” Pearson, 555 U.S. at 231 (emphasis added), to
require Plaintiff to satisfy a standard under which the
nurses would be protected from liability—no matter
how unreasonable their conduct—as long as they did
not subjectively appreciate that their actions put Sandoval at a substantial risk of suffering serious harm. We
cannot accept this extraordinary proposition, which
would transform a defense that protects “all but the
plainly incompetent,” into one that provides immunity
to defendants precisely because they were so incompetent that they did not understand the patent unreasonableness of their conduct as already established by
law.12 See Abbasi, 137 S. Ct. at 1867 (explaining that a
for relief changed during the course of this litigation. The objective nature of the qualified immunity defense did not.
12
As support for its position, the dissent cites only our unpublished memorandum disposition in Acosta v. Hill, 244 F. App’x
792 (9th Cir. 2007). Dissent at 54. Putting aside that Acosta is not
binding precedent, it also has nothing to do with the issues in this
case. Acosta involved a change in the law governing what constituted “deadly force.” Id. at 794; see Smith v. City of Hemet, 394
F.3d 689, 705-07 (9th Cir. 2005) (en banc). Given constitutional
restrictions on when a police officer may use deadly force, the
change in the definition of deadly force necessarily affected when
officers could justifiably use certain types of force. In other words,
as the decision itself makes clear, Acosta involved a change in the
law governing the defendants’ conduct. 244 F. App’x at 794 (“Under qualified immunity, the officers didn’t have ‘fair warning’ that
their actions may have been unconstitutional.”). Acosta therefore
stands for nothing more than the well-settled rule that clearly established law must provide the defendant with notice that his
conduct was unlawful in the situation he confronted—exactly the
standard we apply in this case. It provides no support for the

App. 38
defendant can be either plainly incompetent or entitled to qualified immunity, but not, as the dissent
would have it, both at the same time).
The dissent’s position might be justified if we could
somehow conclude that the nurses relied on the subjective deliberate indifference standard in determining
how to treat Sandoval. But to speak the thought is to
recognize that it makes little sense. As the clearly established law prong of qualified immunity is typically
applied, we impute to the defendant knowledge of the
relevant case law governing his conduct. Thus, if there
is binding precedent holding that a police officer may
not use deadly force against an unarmed fleeing
suspect,13 future officers are expected to tailor their
conduct accordingly. Those who fail to do so are not entitled to qualified immunity.14 They have received their
“fair notice” and squandered it. Hughes, 138 S. Ct. at
1152.
But how would an official who believes any claims
against him would be tried under a subjective deliberate indifference standard act any differently than
one who knows that an objective unreasonableness
dissent’s far more reaching assertion: even if prior case law made
clear that the nurses’ response to Sandoval’s condition was constitutionally inadequate—even if there were a precedential case
finding a constitutional violation on exactly the same facts—the
nurses would still be entitled to qualified immunity as long as
they did not subjectively understand that their actions were unlawful.
13
See Tennessee v. Garner, 471 U.S. 1 (1985).
14
E.g., A.K.H. ex rel. Landeros v. City of Tustin, 837 F.3d
1005, 1013 (9th Cir. 2016).

App. 39
standard applies? It is not as if an individual can consciously control the extent to which he is subjectively
aware of the wrongfulness of his conduct. It therefore
seems likely that officials responsible for providing
medical care to inmates will act in exactly the same
manner after Gordon as they did before. They will provide the treatment they think necessary under the circumstances, mindful of what our cases dictate is
appropriate conduct in different factual scenarios, and,
in the event they subjectively believe the treatment
they are providing is inadequate, they will, we would
hope, adjust their conduct accordingly.
It is true that after Gordon, state officials may now
be held liable for providing inadequate medical care
even when they were not subjectively aware of the unreasonableness of their conduct. But as the Seventh
Circuit has explained, this change could affect an official’s on-the-ground actions only if we were to assume
that before Gordon, officials acted in reliance on the
belief that as long as they were not subjectively aware
that their conduct created a substantial risk of serious
harm to an inmate, they could provide any level of
medical care they so chose, no matter how obviously
deficient. Kingsley II, 801 F.3d at 832-33. Like the
Sixth and Seventh Circuits, we refuse to accept this
“dubious proposition.” Id.; Hopper, 887 F.3d at 755.15
15

We recognize that three circuits appear to have concluded
after Kingsley that they were required to apply a subjective
framework for purposes of qualified immunity, even though it had
since been replaced by an objective standard. Quintana v. Santa
Fe Cnty. Bd. of Commissioners, 973 F.3d 1022 (10th Cir. 2020);

App. 40
In sum, as we previously concluded in Horton,
when the governing law has changed since the time of
the incident, we apply the current law to determine if
a constitutional violation took place under the first
prong of qualified immunity analysis, and the second
prong remains what it has always been: an objective
examination of whether established case law would
make clear to every reasonable official that the defendant’s conduct was unlawful in the situation he confronted. Horton, 915 F.3d at 600-602. We will approach
our analysis accordingly.
We have already determined that there is a triable
issue of fact whether the nurses committed constitutional violations under the Gordon standard, which
governs the violation prong of our qualified immunity
analysis. See id. at 602. We turn now to whether the
right was clearly established at the time.
B.
Applying Horton’s approach here, to defeat qualified immunity for the Officers, Plaintiff must show
Kedra v. Schroeter, 876 F.3d 424, 440 (3d Cir. 2017); Hall v. Ramsey County, 801 F.3d 912, 917 n.3 (8th Cir. 2015). But in their
cursory discussions of the issue, none of these courts appear to
have contemplated that the clearly established law analysis may
apply differently when a post-incident change in law concerns the
mental state required to prove a claim rather than the lawfulness
of the defendants’ conduct. Nor do they explain why applying a
since-abrogated subjective standard would be consistent with the
purpose of qualified immunity: providing defendants with “fair
notice that [their] conduct was unlawful.” Hughes, 138 S. Ct. at
1152. We are therefore not persuaded by their analyses.

App. 41
that, given the available case law at the time, a reasonable nurse, knowing what Llamado, Harris, and de
Guzman knew, would have understood that failing to
call paramedics (Llamdo and Harris), or failing to
check on Sandoval for hours and failing to pass on information about his condition (de Guzman), “presented
such a substantial risk of harm to [Sandoval] that the
failure to act was unconstitutional.” Horton, 915 F.3d
at 600. The nurses’ actual subjective appreciation of
the risk is not an element of the established-law inquiry. We conclude that Sandoval has demonstrated
that the available law was clearly established as to the
unreasonableness of the nurses’ conduct.
Beginning with Nurses Harris and Llamado, it
has long been established that “failing to provide . . .
life-saving measures to an inmate in obvious need can
provide the basis for liability under § 1983 for deliberate indifference.” Lemire v. Cal. Dep’t of Corr. & Rehab.,
726 F.3d 1062, 1082 (9th Cir. 2013). In Lemire, we held
that officers who discovered an inmate unconscious after a suicide attempt could be liable when they failed
to immediately begin performing CPR or any other
“life saving action[s]” on the inmate and instead waited
several minutes for medical professionals to arrive. Id.
at 1083.
The case for deliberate indifference is at least as
strong here. Viewing the evidence in the light most
favorable to Plaintiff, Nurses Llamado and Harris,
trained medical professionals, knew that Sandoval was
unresponsive and seizing but failed to promptly summon paramedics. Calling paramedics was “[s]tandard

App. 42
nursing protocol” for prolonged seizures, and every reasonable nurse would have understood that paramedics
were the only individuals capable of transporting
Sandoval to the hospital. Because every reasonable
nurse, knowing what Llamado and Harris knew,
would have understood that not calling paramedics
amounted to an unconstitutional failure to provide
“life-saving measures to an inmate in obvious need,”
id. at 1082, Harris and Llamado are not entitled to
qualified immunity, see Horton, 915 F.3d at 600.
We reach the same conclusion with regard to
Nurse de Guzman. As we have previously explained,
a reasonable nurse in de Guzman’s position—i.e., a
nurse who was told that Sandoval was sweating, tired,
and disoriented, and that “there was still something
going on” that needed to be “look[ed] at . . . more thoroughly”—would understand that Sandoval faced a
substantial risk of serious harm. The question thus becomes whether every reasonable nurse would understand, in light of established case law, that de Guzman
violated Sandoval’s constitutional right to adequate
medical care when he responded by merely performing
a 10-second blood sugar test—a test performed earlier
to no avail—and then walking away, leaving Sandoval
unattended for six hours despite the fact that he was
only 20 feet from de Guzman’s nursing station. In light
of our precedent, all reasonable nurses would understand that de Guzman’s minimal—almost non-existent—course of treatment violated the Constitution.
Our cases make clear that prison officials violate
the Constitution when they “deny, delay or intentionally

App. 43
interfere” with needed medical treatment. Jett v. Penner, 439 F.3d 1091, 1096 (9th Cir. 2006) (citation omitted). The same is true when prison officials choose a
course of treatment that is “medically unacceptable
under the circumstances.” Snow v. McDaniel, 681 F.3d
978, 988 (9th Cir. 2012) (quoting Jackson v. McIntosh,
90 F.3d 330, 332 (9th Cir. 1996)), overruled on other
grounds by Peralta, 744 F.3d 1076.
We have applied this standard on several occasions. In Clement v. Gomez, we held that correctional
officers could be liable for failing to provide constitutionally adequate medical care when they knew that
inmates had been exposed to pepper spray but waited
four hours before allowing them to leave their cells to
shower. 298 F.3d 898, 902, 904-05 (9th Cir. 2002). Similarly, in Jett v. Penner, we held that a doctor could be
held liable for a constitutional violation when he knew
that an inmate’s thumb was fractured but failed to ensure that the fracture was set and cast. 439 F.3d at
1097-98; see also Hunt v. Dental Dep’t, 865 F.2d 198,
200 (9th Cir. 1989) (plaintiff could establish a constitutional violation when prison officials were aware that
he was suffering from bleeding gums and broken teeth
as a result of broken dentures but “failed to take any
action to relieve his pain or to prescribe a soft food diet
until new dentures could be fitted”). The rule reflected
in these decisions is clear: a prison official who is aware
that an inmate is suffering from a serious acute medical condition violates the Constitution when he stands
idly by rather than responding with reasonable diligence to treat the condition.

App. 44
To be sure, we have never before addressed the
specific factual circumstances here, where a nurse is
told that a patient is sweating, disoriented, and in need
of a more thorough look but does nothing more than
perform a quick 10-second blood test. But de Guzman
is not entitled to qualified immunity simply because
“the very action in question has [not] previously been
held unlawful.” Hope v. Pelzer, 536 U.S. 730, 73 (2002)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)). State “ ‘[o]fficials can still be on notice that
their conduct violates established law even in novel
factual circumstances’—i.e., even without a prior case
that had ‘fundamentally similar’ or ‘materially similar’
facts.” Wilk, 956 F.3d at 1148 (quoting Hope, 536 U.S.
at 741); cf. Castro, 833 F.3d at 1067 (“The Supreme
Court need not catalogue every way in which one inmate can harm another for us to conclude that a reasonable official would understand that his actions
violated Castro’s right.”).
If it is a constitutional violation to delay treatment
for four hours for inmates exposed to pepper spray,
Clement, 298 F.3d at 905, or to fail to promptly set a
fractured thumb, Jett, 439 F.3d at 1097-98—neither of
which are potentially life-threatening conditions—the
same must be true for failing to provide any meaningful treatment to an inmate who was sweating and appeared so tired and disoriented that a deputy urged
that he be re-evaluated. Accordingly, every reasonable
nurse in Nurse de Guzman’s position would have

App. 45
understood that his treatment of Sandoval, or lack
thereof, was constitutionally inadequate.16
We emphasize that this is not a case where a nurse
mistakenly misdiagnosed a patient after reasonably
attempting to ascertain the cause of unexplained
symptoms. Instead, viewing the evidence in the light
most favorable to Plaintiff, Nurse de Guzman made essentially no effort to determine why Sandoval was suffering the symptoms reported by Deputy Chavez, nor
did he attempt to treat those symptoms. He then abandoned Sandoval for the remaining six hours of his shift
and failed to pass along any information to the nurses
16

Even under the dissent’s subjective standard, Nurse de
Guzman would not be entitled to qualified immunity because a
jury could conclude from his suggestion that Sandoval be moved
to a sobering tank, where individuals under the influence of drugs
or alcohol are placed for observation by medical staff, that de Guzman himself subjectively understood that Sandoval had a serious
condition requiring medical treatment. The dissent reaches a contrary conclusion only by adopting a view of the evidence that not
even Nurse de Guzman has advanced. It interprets de Guzman’s
recommendation that Sandoval be moved to a sobering tank to
negate any inference that de Guzman understood the seriousness
of Sandoval’s condition, ostensibly because de Guzman knew that
inmates in a sobering cell would be checked only every four hours.
Dissent at 67-68. Perhaps a jury could come to this conclusion, if
de Guzman were to actually argue it. But it is not the only reasonable inference that could be drawn from de Guzman’s sobering
tank comment. For example, a jury could find that de Guzman
attempted to send Sandoval to a sobering cell, where another
nurse would be responsible for his care, precisely because he understood that Sandoval required treatment and did not want to
deal with the hassle of providing it. Because de Guzman’s statement is susceptible of interpretations under which he would not
be entitled to qualified immunity, it cannot be used to justify a
grant of summary judgment. Tuuamalemalo, 946 F.3d at 478.

App. 46
who relieved him. On these facts, de Guzman is not entitled to qualified immunity. Of course, it remains to be
determined at trial whether the nurses violated Sandoval’s clearly established rights. Thus, summary judgment on qualified immunity should not have been
awarded to defendant nurses.
VI.
Having determined that the individual nurse defendants are not entitled to summary judgment, we
now turn to the claims against the County. Under Monell v. Department of Social Services, the County can
be liable under § 1983 if its “policy or custom” caused
Sandoval’s injuries through deliberate indifference to
his constitutional right to adequate medical care. 436
U.S. 658, 694 (1978); see also Castro, 833 F.3d at 1073.
The practice or custom at issue here is the
County’s use of MOC1 as a “mixed use” cell—sometimes used to hold inmates requiring medical care and
other times used as a general holding cell—without adequate safeguards in place to ensure that jail staff
were made aware when an individual was placed in
MOC1 for medical, rather than correctional, reasons.
According to Nurse Llamado, unlike with other medical cells at the jail (so-called sobering or safety cells),
there was “no standing obligation . . . for a nurse to
routinely monitor somebody in [MOC1].” Instead, a
nurse would attend to MOC1 only when told by a deputy or another nurse that an inmate there required
treatment.

App. 47
Crucially, this system depended entirely on verbal
communication. Unless directly told otherwise, nurses
assumed that individuals in MOC1 were being held
there for non-medical purposes. And even when deputies verbally passed off responsibility for the cell to one
shift of nurses, the relief shift had no way of knowing
whether to monitor MOC1 unless specifically told to do
so by the nurses they were replacing. Unlike with the
jail’s sobering and safety cells, there were no written
nursing logs for MOC1. And though the nursing unit
had a whiteboard listing the names of inmates in the
sobering and safety cells, the board had no space to list
inmates being held in MOC1. These practices created
a substantial risk of turning MOC1 into a veritable no
man’s land, where deputies believed the cell was being
monitored by nurses, and nurses believed it was being
monitored by deputies.
Nurses at the jail explained that the informal verbal pass-off system for MOC1 created confusion. The
facts of this case bear that out. The deputies believed
that Nurse de Guzman knew that Sandoval was in
MOC1 because he required monitoring by the medical
staff. In contrast, Nurse de Guzman was adamant that
because he had ostensibly cleared Sandoval for booking, Sandoval must have been left in MOC1 for correctional purposes. As a result, de Guzman did not inform
the night shift nurses that Sandoval required care.
This evidence is sufficient to allow a jury to find that
the County had an established practice of using MOC1
as a mixed-use cell without the safeguards necessary
to ensure that the jail’s medical staff knew when an

App. 48
inmate held there required medical treatment or observation.
The next question is whether there is a “direct
causal link” between the County’s practice with regard
to MOC1 and Sandoval’s injuries. Castro, 833 F.3d
at 1075 (quoting City of Canton v. Harris, 489 U.S.
378, 385 (1989)). As Nurses de Guzman and Llamado
acknowledged, inmates in other medical cells were
checked at least once every four hours. A jury could infer that Sandoval would have received similar monitoring had the County put in place measures to ensure
the nursing staff knew when an inmate was placed in
MOC1 for medical reasons. Moreover, had the nursing
staff maintained written logs for patients held in
MOC1, as they did for other medical cells, the incoming
night shift nurses might have learned of Sandoval’s
condition from those logs and monitored him more
closely. A jury could find that had Sandoval been monitored by the nursing staff—instead of being abandoned
for nearly eight hours—his deteriorating medical condition would have been discovered earlier. And Plaintiff ’s expert, Dr. Falgiani, opined that Sandoval likely
would have survived the overdose if he had been taken
to the hospital at any time before he went into cardiac
arrest. This is sufficient to create a genuine dispute of
material fact as to whether the County’s practices
caused Sandoval’s death.
Finally, we address whether the evidence would
support a finding of objective deliberate indifference on
the part of the County. Id. at 1076. This requires a
showing that the facts available to the County put it

App. 49
on “actual or constructive notice” that its practices
with regard to MOC1 were “substantially certain to
result in the violation of the constitutional rights of
[its] citizens.”17 Id. (emphasis removed) (quoting Harris, 489 U.S. at 396 (O’Connor, J., concurring)).
In granting summary judgment to the County,
the district court concluded that Plaintiff could not
establish deliberate indifference because there was no
evidence that the failure to implement adequate communication safeguards had caused “prior injury or
death to MOC1 inhabitants.” The County does not defend this rationale on appeal, and for good reason. To
establish her claim, Plaintiff must show that the
County had actual or constructive knowledge that its
practices were substantially certain to cause a constitutional violation. Id. This standard does not require
17

This deliberate indifference standard does not apply when
a Monell defendant’s policies, customs, or practices directly require unconstitutional conduct—for example, “a city’s policy of
discriminating against pregnant women in violation of the Fourteenth Amendment.” Gibson, 290 F.3d at 1185-86, overruled on
other grounds by Castro, 833 F.3d 1060. Plaintiff suggests that
the County had a direct policy requiring the medical staff to “ignore the inmates in [MOC1] unless told otherwise.” But there is
no evidence that the County wanted nurses to ignore all inmates
in MOC1, even those suffering from medical problems. To the contrary, the evidence shows that nurses understood they were supposed to monitor MOC1 when it was being used to hold inmates
requiring medical care. That Sandoval was ignored for almost
eight hours was not the purpose of the County’s policies but rather a tragic consequence of its failure to implement measures
necessary to ensure the nursing staff knew when an individual
was being held in MOC1 for medical reasons. Deliberate indifference is therefore the appropriate standard.

App. 50
proof of a prior injury. A constitutional injury can be
substantially certain to follow from a practice even if
an injury has yet to occur. Otherwise, every Monell defendant would get “one free . . . pass” for policies or
practices that are substantially certain to violate an
individual’s constitutional rights. Woodward v. Corr.
Med. Servs. of Ill., Inc., 368 F.3d 917, 929 (7th Cir. 2004)
(cleaned up).
Under the proper standard, it is a close question
whether Plaintiff has mustered sufficient evidence to
create a triable issue of fact on whether the County
was deliberately indifferent. There is certainly enough
evidence to support a finding of negligence. But to establish deliberate indifference, Plaintiff must prove
that the County had actual or constructive knowledge
that the failure to implement protocols necessary to
ensure that nurses knew when inmates in MOC1 required medical care was “substantially certain” to result in inmates failing to receive the proper treatment,
creating a likelihood of serious injury or death. Castro,
833 F.3d at 1076.
Ultimately, we conclude that summary judgment
should not have been granted on the County’s liability
under Monell. Plaintiff has put forward sufficient circumstantial evidence of the County’s knowledge such
that a reasonable jury could find deliberate indifference.
To begin, a jury could infer from the more rigorous
policies the County put in place for the sobering and
safety cells that it was aware of the importance of

App. 51
ensuring that the nursing staff knew which inmates
required medical treatment or observation. For the sobering and safety cells, the medical staff listed the
name and location of each patient on a whiteboard.
Specific nurses were assigned to monitor each cell. And
nurses filled out written logs with their observations of
the inmates held in those cells. A reasonable jury could
conclude that the County implemented these practices
because it understood they were necessary to ensure
that inmates requiring medical care would not fall
through the cracks. Cf. id. at 1077 (explaining that
a county’s knowledge can be inferred from its ordinances).
This conclusion is only reinforced by the fact that,
after Sandoval’s death, the County put in place a new
practice for MOC1. Now, when a deputy places an inmate requiring medical care in MOC1, he must place a
magnetic placard on the door indicating that the inmate is there for medical reasons. A jury could view
this as an acknowledgement by the County that its
prior practices—which relied exclusively on verbal
communication—were insufficient.18 And, as explained,
it could be reasonably inferred from the fact that
the County had implemented more extensive tracking
18

To the extent the dissent suggests that evidence of the
County’s change in policy would be inadmissible as a subsequent
remedial measure under Federal Rule of Evidence 407, Dissent
at 73, the County forfeited this objection by failing to raise it in
the district court. Skillsky v. Lucky Stores, Inc., 893 F.2d 1088,
1094 (9th Cir. 1990) (“[F]ailure to object to allegedly defective evidence waives the objection for purposes of summary judgment[.]”).

App. 52
measures for the sobering and safety cells that it knew
at the time that relying on verbal communications
alone would create a substantial risk that an inmate’s
serious medical needs could go unaddressed.
That is not to say that a jury is required to find
deliberate indifference on the record before us. Perhaps the County could show at trial that there were
good reasons for treating MOC1 differently from the
other medical cells, and that despite the policies put in
place for the sobering and safety cells, it was not aware
that similar practices were required to provide adequate medical care in MOC1. But viewing the evidence
in the light most favorable to Plaintiff, we conclude
that there is a triable issue of fact as to the County’s
liability under Monell.
*

*

*

Viewing the evidence in Plaintiff ’s favor, a jury
could conclude that Ronnie Sandoval would not have
died but for the defendants’ unreasonable response to
his obvious signs of medical distress. The district court
therefore erred in granting summary judgment. We reverse and remand for further proceedings consistent
with this opinion.
REVERSED.

App. 53
COLLINS, Circuit Judge, concurring in the judgment
in part and dissenting in part:
Plaintiff Ana Sandoval (“Plaintiff ”) brought this
action under 42 U.S.C. § 1983 as the successor in interest to Ronnie Sandoval (“Sandoval”), who tragically
died in custody at the San Diego Central Jail.1 During
a probation search of his residence, Sandoval surreptitiously swallowed some methamphetamine in an apparent effort to avoid its detection. After he was taken
into custody for possession of drugs and drug paraphernalia that were nonetheless found during the
search, the medical staff at the jail subsequently failed
to detect that Sandoval had overdosed and that he was
lying when he said that he was not under the influence.
Compounding these problems, when Sandoval ultimately collapsed in his cell, there was a delay in summoning the paramedics needed to address his dire
condition. Alleging that the jail employees violated
Sandoval’s constitutional rights through deliberate indifference to his medical needs, Plaintiff asserted
claims under § 1983 against three of the jail’s nurses
and against the county as operator of the jail. The district court subsequently granted summary judgment
to all Defendants, and Plaintiff appeals the dismissal
of the § 1983 claims.

1

Ana Sandoval and her children also assert additional statelaw claims on their own behalf, but the district court remanded
those claims to state court after dismissing the § 1983 claims. Ana
Sandoval, as successor in interest to Ronnie Sandoval, is the sole
plaintiff in the § 1983 claims asserted in the operative complaint.

App. 54
I agree with the majority’s ultimate conclusion
that Nurses Dana Harris and Maria Llamado were not
entitled to summary judgment, but I would affirm the
district court’s grant of summary judgment to Nurse
Romeo de Guzman and to the County of San Diego. Because my reasoning differs from the majority’s even
with respect to Harris and Llamado, I concur only in
the judgment in part, and I otherwise respectfully dissent.
I
Before turning to the merits, I must first briefly
respond to the majority’s unsolicited essay on the district court’s evidentiary rulings. The district court held
that, by failing to respond to Defendants’ evidentiary
objections to the evidence Plaintiff had submitted in
opposition to Defendants’ summary judgment motion,
Plaintiff forfeited any challenge to those evidentiary
objections, which the court therefore sustained. In her
opening brief in this court, Plaintiff challenged the district court’s evidentiary ruling with respect to only one
item of evidence that she had submitted—viz., the report prepared by one of the police officers in this matter. As I explain below, I agree with Plaintiff that this
document was admissible and that the district court
erred in concluding otherwise. See infra at 65 n.4. That
observation suffices to dispose of the evidentiary issues
raised in the parties’ briefs in this court, and we should
have stopped there.

App. 55
Nonetheless, the majority gratuitously proceeds to
engage in a lengthy lecture about the perceived inadequacy of the Defendants’ evidentiary objections below
and of the district court’s ruling on them. See Maj.
Opin. at 12-16. But given that no party asked us in the
merits briefs to review any other evidentiary issue, the
majority should not have raised this panoply of additional issues sua sponte. See United States v. SinenengSmith, 140 S. Ct. 1575, 1579 (2020) (“In our adversarial system of adjudication, we follow the principle of
party presentation,” under which “ ‘we rely on the parties to frame the issues for decision and assign to
courts the role of neutral arbiter of matters the parties
present.’ ” (citation omitted)); Independent Towers of
Washington v. Washington, 350 F.3d 925, 929 (9th Cir.
2003) (“Our circuit has repeatedly admonished that we
cannot ‘manufacture arguments for an appellant’ and
therefore we will not consider any claims that were not
actually argued in appellant’s opening brief.” (citation
omitted)).
II
The district court granted summary judgment to
the three individual Defendants (the “Nurses”), concluding that Plaintiff had failed to establish the requisite deliberate indifference and that, in any event, the
Nurses were entitled to qualified immunity. In reversing the judgment as to the Nurses, the majority applies
the wrong legal standards to the qualified immunity
inquiry and, as to Nurse de Guzman, reaches the
wrong result.

App. 56
A
In opposing the Nurses’ claim of qualified immunity, Plaintiff had to show that the Nurses violated
clearly established law as it stood in 2014, when they
acted. Because the then-controlling deliberate-indifference liability standards included a subjective element,
Plaintiff therefore had to make a showing of subjective
deliberate indifference to defeat qualified immunity,
and she had to do so even though that subjective element of the test for liability has since been overruled.
The majority errs—and expressly creates a circuit
split—in reaching the oxymoronic conclusion that a
county employee who did not even violate the law at
the time he or she acted can nonetheless be said to
have violated clearly established law at that time.
1
Jail employees are entitled to qualified immunity
“unless (1) they violated a federal statutory or constitutional right, and (2) the unlawfulness of their conduct was ‘clearly established at the time.’ ” District of
Columbia v. Wesby, 138 S. Ct. 577, 589 (2018) (quoting
Reichle v. Howards, 566 U.S. 658, 664 (2012)). Whether
an employee’s conduct violated clearly established law
must be “ ‘judged against the backdrop of the law at the
time of the conduct.’ ” Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018) (quoting Brosseau v. Haugen, 543 U.S. 194,
198 (2004)). Changes in the applicable law that occur
subsequent to the employee’s actions are “therefore ‘of
no use in the clearly established inquiry.’ ” Id. at 1154

App. 57
(quoting Brosseau, 543 U.S. at 200 n.4). Because the
conduct here occurred in 2014, “the law at that time
must be our guide.” Robinson v. Solano Cnty., 278 F.3d
1007, 1015 (9th Cir. 2002) (en banc).
Current Ninth Circuit law holds that, in light of
the Supreme Court’s decision in Kingsley v. Hendrickson, 576 U.S. 389 (2015), a pretrial detainee’s claim of
deliberate indifference to serious medical needs “must
be evaluated under an objective deliberate indifference
standard,” Gordon v. County of Orange, 888 F.3d 1118,
1124-25 (9th Cir. 2018) (emphasis added). But at the
time the Nurses acted in this case—i.e., 2014, before
the decision in Kingsley—the then-established Ninth
Circuit law provided that the same “deliberate indifference” standard that applies to Eighth Amendment
medical care claims asserted by convicted prisoners
also “applie[d] to claims that correction facility officials failed to address the medical needs of pretrial
detainees” in violation of the Fourteenth Amendment.
Clouthier v. County of Contra Costa, 591 F.3d 1232,
1242 (9th Cir. 2010), overruled by Castro v. County of
Los Angeles, 833 F.3d 1060 (9th Cir. 2016) (en banc).2
2

In Castro, we expressly “overrule[d] Clouthier to the extent
that it identified a single deliberate indifference standard for all
§ 1983 claims and to the extent that it required a plaintiff to prove
an individual defendant’s subjective intent to punish in the context of a pretrial detainee’s failure-to-protect claim.” 833 F.3d at
1070 (emphasis added). We instead held that a pretrial detainee’s
“due process claim for failure to protect” is governed by a purely
objective test. Id. at 1071. In Gordon, we extended Castro’s reasoning to “claims for violations of the right to adequate medical
care ‘brought by pretrial detainees against individual defendants
under the Fourteenth Amendment,’ ” and held that such claims

App. 58
Under this standard, a detainee had to show both a
“serious medical need” and the defendant’s “deliberate
indifference” to that need. Conn v. City of Reno, 591
F.3d 1081, 1095-96 (9th Cir. 2010), vacated, 563 U.S.
915 (2011), reinstated in relevant part, 658 F.3d 897
(9th Cir. 2011). To establish the requisite deliberate
indifference, a detainee had to “show that the [jail employees] were (a) subjectively aware of the serious medical need and (b) failed to adequately respond.” 591
F.3d at 1096. In turn, in order for a jail employee to be
found to have such subjective awareness, the employee
“ ‘must both be aware of facts from which the inference
could be drawn that a substantial risk of serious harm
exists, and he [or she] must also draw the inference.’ ”
Id. (quoting Farmer v. Brennan, 511 U.S. 825, 837
(1994)).
Because the qualified immunity issue turns on
whether “ ‘any reasonable official in the defendant’s
shoes would have understood that he [or she] was
violating’ ” then-existing law, Kisela, 138 S. Ct. at 1153
(quoting Plumhoff v. Rickard, 572 U.S. 765, 779 (2014)),
and because then-existing law required subjective
awareness of a serious medical need, Conn, 591 F.3d at
1096, it follows that a nurse who, at the time, did not
subjectively apprehend Sandoval’s serious medical
needs is entitled to qualified immunity. Put simply, a
nurse who did not violate then-existing law cannot
possibly be said to have violated clearly established
law, and such a nurse is therefore entitled to qualified
“must be evaluated under an objective deliberate indifference
standard.” 888 F.3d at 1124-25 (quoting Castro, 833 F.3d at 1070).

App. 59
immunity. Consequently, unless Plaintiff presented
sufficient evidence to raise a triable issue with respect
to (inter alia) a given nurse’s subjective awareness of
Sandoval’s serious medical needs, that nurse would be
entitled to qualified immunity. See, e.g., Acosta v. Hill,
244 F. App’x 792, 794 (9th Cir. 2007) (where “standard
for deadly force” changed by virtue of intervening en
banc decision, qualified immunity was still analyzed
under the previously applicable standard) (applying
Vera Cruz v. City of Escondido, 139 F.3d 659, 660 (9th
Cir. 1997), overruled by Smith v. City of Hemet, 394
F.3d 689, 706 (9th Cir. 2005) (en banc)).
2
The majority nonetheless contends that the qualified immunity inquiry in this case is governed by a
purely objective standard, viz., whether “a reasonable
nurse, knowing what Llamado, Harris, and de Guzman
knew, would have understood that [his or her actions]
‘presented such a substantial risk of harm to [Sandoval] that the failure to act was unconstitutional.’ ” Maj.
Opin. at 39 (citation omitted). According to the majority, the qualified immunity inquiry requires an exclusively objective focus that effectively shears off any
subjective element of the previously existing liability
standard. As explained above, this position cannot be
correct, because it rests on the self-contradictory premise that one can violate the clearly established law at
the time without even violating the law at the time. See
supra at 54. Although the majority argues that its position is required by Ninth Circuit precedent, its ruling

App. 60
here is both contrary to our caselaw and creates a split
with at least three other circuits.
a
The majority wrongly asserts that its approach
was endorsed in Horton ex rel. Horton v. City of Santa
Maria, 915 F.3d 592 (9th Cir. 2019), where we observed
that, under Estate of Ford v. Ramirez-Palmer, 301 F.3d
1043 (9th Cir. 2002), the qualified immunity inquiry in
a deliberate indifference case “should concentrate on
the objective aspects of the constitutional standard.”
Horton, 915 F.3d at 600 (emphasis added). But as a review of our decisions in Estate of Ford and Horton confirms, this observation merely reflects the fact that, in
most deliberate indifference cases, the subjective elements of the liability standard have little work to do at
the qualified immunity stage, so that the resulting focus should ordinarily be on the objective aspects. The
fact that, as a practical matter, the inquiry should ordinarily “concentrate” on the objective aspects does not
imply (as the majority would have it) that any consideration of the subjective aspects of the test is forbidden, and in fact Horton clearly rejects the majority’s
view.
In Estate of Ford, we addressed the continued validity of our prior decision in Hamilton v. Endell, 981
F.2d 1062 (9th Cir. 1992), which had held that a “finding of deliberate indifference necessarily precludes a
finding of qualified immunity” inasmuch as “prison officials who deliberately ignore the serious medical

App. 61
needs of inmates cannot claim that it was not apparent
to a reasonable person that such actions violated the
law.” Id. at 1066 (first emphasis added). Estate of Ford
did not dispute Hamilton’s underlying premise that,
with respect to the subjective aspect of the deliberate
indifference test, the constitutional merits inquiry and
the qualified immunity inquiry collapsed into one another. But given the Supreme Court’s subsequent emphasis on maintaining the distinction between the
underlying merits of a claim and the qualified immunity inquiry, Estate of Ford concluded that Hamilton had
erred in completely “collaps[ing] the deliberate indifference part of the constitutional inquiry into the
qualified immunity inquiry.” 301 F.3d at 1050 (citing
Saucier v. Katz, 533 U.S. 194 (2001)). As Estate of Ford
explained, in addition to the subjective element, the
deliberate indifference test has “an objective component as well,” and with respect to that component, the
merits inquiry and the qualified immunity inquiry do
not collapse together. Id. at 1049-50. Because the objective component of the deliberate indifference test
requires a “substantial risk of serious harm,” a “reasonable prison official” could know all the relevant
facts and “yet mistakenly, but reasonably, perceive that
the exposure in any given situation was not that high.”
Id. at 1050. In such circumstances, an officer “would be
entitled to qualified immunity” despite the subjectively
malign disregard of what was wrongly (but reasonably) perceived to be a minor risk. Id.
Estate of Ford thus did not hold that the qualified
immunity inquiry is exclusively objective and that it

App. 62
affirmatively disregards any subjective elements of the
underlying liability standard. Rather, Estate of Ford
recognized that, when the underlying liability standard remains unchanged and has both subjective and
objective components, the merits inquiry and the qualified immunity inquiry will overlap completely with respect to the subjective element, but that the same
cannot be said of the objective element. 301 F.3d at
1049-50. In such circumstances, the qualified immunity inquiry will necessarily focus on the objective aspects of the test, because the subjective component of
the test “does not fit easily with the qualified immunity
inquiry.” Id. at 1049.
But the situation is different if, after the defendant
acted, the subjective element of the liability standard
is modified or eliminated. In that circumstance, the
merits inquiry (which no longer has that subjective element) will not overlap completely with the qualified
immunity inquiry (which, because it examines the law
at the time the defendant acted, still does have a subjective element). Thus, in contrast to the situation in
Hamilton and Estate of Ford, the merits and qualified
immunity inquiries in the change-of-law scenario do
not collapse into each other with respect to the previously applicable subjective element of the liability test.
In such a case, the court therefore must separately consider at the qualified immunity stage whether the Defendants violated the law at the time of the conduct,
which includes a consideration of the since-rejected
subjective deliberate indifference standard.

App. 63
Our decision in Horton, which involved the “attempted suicide of a jailed pretrial detainee,” confirms
this analysis. 915 F.3d at 596. The district court in Horton, applying the then-applicable subjective test, denied qualified immunity to defendant police officer
Brice, holding that “there is a genuine issue of fact regarding whether Officer Brice acted with deliberate indifference to Horton’s safety.” Id. at 598. Consistent
with Estate of Ford, we recognized that, “even where
the clearly established legal standard requires deliberate indifference”—as it did at the time Brice acted—
“the qualified immunity inquiry should concentrate on
the objective aspects of the constitutional standard.”
Id. at 600 (emphasis added). Under Estate of Ford, the
fact that there was a triable issue as to Brice’s subjective knowledge under the “clearly established legal
standard” was not enough to defeat qualified immunity, because Horton also had to show that any reasonable officer would have known that Brice’s actions
objectively “presented such a substantial risk of harm
to Horton that the failure to act was unconstitutional.”
Id. Reviewing the caselaw on that objective aspect of
the qualified immunity inquiry at the time that Brice
acted, we held that it was “too sparse, and involved circumstances too distinct from those in this case, to establish that a reasonable officer would perceive a
substantial risk that Horton would imminently attempt suicide.” Id. at 601-02.
Because we reversed the district court’s denial of
qualified immunity based on the objective elements
of clearly established law, we expressly declined to

App. 64
consider, for qualified immunity purposes, how the
subjective elements of the pre-Castro deliberate indifference test—which governed at the time of the conduct—applied to Horton’s case. 915 F.3d at 602. But in
discussing this issue, we expressly noted that the new
Gordon objective standard would not govern this aspect of the inquiry. The objective standard, we explained, would “guide our analysis” of the merits of
“whether a constitutional violation occurred here, were
we to reach that question,” but “it has no direct bearing
on the question of whether Officer Brice would have
known that a failure to immediately check on Horton
violated a clearly established right at the time of the
incident.” Id. (emphasis in original). Because the subjective standard was no longer applicable to future
cases and Brice’s entitlement to qualified immunity
had already been established on other grounds, “no
purpose would be served for future cases from delineating the application of that [pre-Castro] standard to
the constitutional merits of this case.” Id. Thus, although our finding of qualified immunity based on the
objective element of the pre-Castro test made it unnecessary to address the subjective element of the
test under the previously applicable law, Horton
clearly recognized—contrary to the majority’s ruling—
that the subjective element remained an aspect of “the
two-step qualified immunity procedure” in the changeof-law scenario. Id. The “rule of Horton,” see Maj. Opin.
at 30, is thus exactly the opposite of what the majority
claims it is.

App. 65
b
In addition to being inconsistent with our precedent, the majority’s ruling creates a clear split with
the decisions of at least three other circuits. Indeed,
the majority opinion candidly acknowledges that the
Third, Eighth, and Tenth Circuits have held that
courts addressing comparable claims must “apply a
subjective framework for purposes of qualified immunity, even though it ha[s] since been replaced by an objective standard.” See Maj. Opin. at 38 n.15 (emphasis
added).
For example, in Kedra v. Schroeter, 876 F.3d 424
(3d Cir. 2017), the Third Circuit addressed a substantive due process claim arising from an alleged “statecreated danger” involving an accidental shooting during a firearms training exercise. Id. at 432. Although
current Third Circuit law would apply an “objective”
standard in addressing such a claim, the court held
that this standard could not be applied to the qualified
immunity inquiry because “the objective theory of deliberate indifference was not clearly established at the
time of the shooting.” Id. at 432. As the court explained,
“we assess qualified immunity based on the law that
was ‘clearly established at the time an action occurred,’ ” and at the time of the shooting in Kedra, “it
was not yet clearly established whether deliberate indifference in the substantive due process context was
governed by an objective or subjective standard.” Id. at
440 (citation omitted). The qualified immunity inquiry
thus turned on whether the plaintiff had “pleaded deliberate indifference under the subjective test, which

App. 66
was then-clearly established,” and after reviewing
the complaint, the court concluded that the plaintiff
had sufficiently alleged a “state-created danger based
on actual knowledge of a substantial risk of serious
harm—the subjective theory of deliberate indifference
that was then-clearly established.” Id. at 440, 444 (emphasis added).
Likewise, in Hall v. Ramsey County, 801 F.3d 912
(8th Cir. 2015), the Eighth Circuit held that any
change in liability standards effected by the Supreme
Court’s decision in Kingsley could not have any impact
on the qualified immunity analysis. The court there addressed a Fourteenth Amendment excessive force
claim asserted by an involuntarily committed person,
and the court noted that the ruling in Kingsley suggested that such a claim would now be governed by an
objective test. Id. at 917 n.3. But the court held that,
because the question of qualified immunity turns on
whether the law was “ ‘clearly established at the time
of the’ alleged violation,” the decision in “Kingsley does
not [a]ffect the standard against which we evaluate the
[defendants’] conduct in the qualified immunity analysis.” Id. (citation omitted).
More recently, the Tenth Circuit similarly applied
the subjective deliberate indifference test in addressing whether jail officials were entitled to qualified immunity with respect to claims that they had failed to
provide necessary medical care to a pretrial detainee
who was experiencing drug withdrawal symptoms.
Quintana v. Santa Fe Cnty. Bd. of Comm’rs, 973 F.3d
1022, 1027-28 (10th Cir. 2020). Applying the law that

App. 67
was established at the time the defendants acted, the
court held that the qualified immunity analysis “requires both an objective and a subjective inquiry.” Id.
at 1028. In a footnote, the majority addressed Judge
Bacharach’s separate opinion concurring in part and
dissenting in part and explicitly “endorse[d] Judge
Bacharach’s rejection of the argument that Kingsley
. . . requires us to conduct only an objective inquiry.” Id.
at 1028 n.1. In the referenced discussion, Judge Bacharach explained that, although the “subjective prong”
of the deliberate indifference test “has been altered for
at least some claims involving pretrial detainees,” the
court had to “apply the subjective prong as it was
clearly established at the time of [the plaintiff ’s] detention.” Id. at 1038 n.2 (opin. of Bacharach, J.); see also
id. at 1049 (“Kingsley did not clearly apply to pretrial
detainees’ claims of inadequate medical care, so the
district court did not err in applying the subjective
prong for purposes of qualified immunity.”). The Tenth
Circuit’s approach is thus also directly contrary to the
majority’s analysis here. See also Perry v. Durborow,
892 F.3d 1116, 1122 n.1 (10th Cir. 2018) (to the extent
that the governing standard was now “objective deliberate indifference, this lower standard wasn’t clearly
established as of ” the date of the incident in question
and could not be applied in analyzing qualified immunity).
Although the majority’s position is directly contrary to that of the Third, Eighth, and Tenth Circuits,
the majority claims that its approach is supported by
the decisions of several other circuits. See Maj. Opin.

App. 68
at 32-34. That is doubtful. Only two of these cases involved a claim of deliberate indifference to the serious
medical needs of a pretrial detainee, and the court in
both cases applied the subjective test in addressing
qualified immunity. Dyer v. Houston, 964 F.3d 374, 38384 (5th Cir. 2020) (holding that confusion over the exact nature of the subjective element did not absolve the
district court of having to decide whether the defendants were liable under the then-clearly established
standards); Hopper v. Plummer, 887 F.3d 744, 756-57
(6th Cir. 2018) (declining to disturb district court’s
denial of qualified immunity in light of its “finding
of a genuine issue of material fact as to defendants’
‘knowledge of a substantial risk of serious harm’ ”).
The majority instead cites the portion of Hopper
that involved an excessive force claim, as well as two
other decisions involving such claims. Hopper, 887 F.3d
at 755-56; Miranda-Rivera v. Toledo-Davila, 813 F.3d
64 (1st Cir. 2016); Kingsley v. Hendrickson, 801 F.3d
828 (7th Cir. 2015) (decision on remand from the Supreme Court’s Kingsley decision). The courts in all
three of these cases dismissed the notion that any previously applicable subjective element of the excessive
force test provided any basis for granting qualified
immunity, and to that extent those cases bear some
arguable similarity to the majority’s conclusion here.
Hopper, 887 F.3d at 755; Miranda-Rivera, 813 F.3d at
73; Kingsley, 801 F.3d at 831. But there is a critical difference between the role of the subjective element in
an excessive force claim (in which the officer affirmatively applies force, see Kingsley, 576 U.S. at 395-96)

App. 69
and a claim of deliberate indifference to serious medical needs (in which the official fails to act). In excessive
force cases in which the objective component of the
qualified immunity inquiry is met—meaning that the
officer has applied an objective level of force that any
reasonable officer would know is excessive—there
are likely to be few, if any, cases in which the officer
who is knowingly and affirmatively applying that
force could plausibly assert that he did not simultaneously act with the requisite subjective intent of “at
least recklessness.” Kingsley v. Hendrickson, 744 F.3d
443, 453 (7th Cir. 2014) (describing the prior law in the
decision that was later reversed by the Supreme Court
in Kingsley). In other words, satisfying the objective
standard for qualified immunity in such excessive
force cases almost certainly means that the subjective
element is met as well. By contrast, where the gravamen of the violation is a failure to act (as in the context
of deliberate indifference to serious medical needs), the
objective unreasonableness of a nurse’s failure to detect a serious medical risk does not similarly lead to an
inescapable conclusion that the nurse must have actually subjectively appreciated that risk. People can, and
do, sometimes subjectively overlook what they should
obviously detect.
These three cases thus supply little support for the
majority’s sweeping rule that the qualified immunity
inquiry is exclusively objective and requires courts to
affirmatively and always disregard any subjective elements of the previously clearly established law. In all
events, to the extent that these cases could be read to

App. 70
endorse the majority’s flawed analysis, then they are
wrong as well.3
*

*

*

Accordingly, each of the Nurses here is entitled to
qualified immunity unless Plaintiff presented sufficient evidence to show (inter alia) that that Nurse was
subjectively “ ‘aware of facts from which the inference
could be drawn that a substantial risk of serious harm
[to Sandoval] exists,’ ” and that he or she actually
“ ‘dr[e]w the inference.’ ” Conn, 591 F.3d at 1096 (quoting Farmer, 511 U.S. at 837).
B
The district court correctly concluded that Plaintiff failed to create a genuine dispute of material fact
under the applicable subjective standard as to Nurse
Romeo de Guzman, but it erred in finding that Harris
and Llamado were entitled to qualified immunity.

3

The majority opinion also misleadingly quotes, out of context, the Supreme Court’s observation in Crawford-El v. Britton,
523 U.S. 574 (1998), that “evidence of improper motive is irrelevant on the issue of qualified immunity.” Id. at 589 (quoted at
Maj. Opin. at 31). Crawford-El was merely referring to the now
well-settled rule that an otherwise valid “defense of qualified immunity may not be rebutted by evidence that the defendant’s conduct was malicious or otherwise improperly motivated.” Id. at 588.
Crawford-El did not address the distinctive question presented
here concerning how to apply qualified immunity principles in the
context of a change in liability standards from subjective to objective.

App. 71
1
The district court correctly held that Plaintiff had
not presented sufficient evidence to permit a reasonable jury to find that de Guzman “was actually aware
Sandoval had a serious medical need.” As the district
court noted, the undisputed evidence confirms that
“Sandoval did not advise any prison official of his drug
overdose condition”; on the contrary, he “lied and denied his use of drugs to Nurse de Guzman.” In arguing
that de Guzman nonetheless actually became subjectively aware of Sandoval’s acute methamphetamine intoxication, Plaintiff places primary weight on two
statements in the police report by one of the involved
officers (Deputy Rodriguez): (1) de Guzman’s statement, as recorded by Rodriguez, that Sandoval should
be sent to a “sobering tank”; and (2) Rodriguez’s own
observation that Sandoval “was shaking mildly” and
“appeared to be having withdrawal[ ] from drugs.”
While I agree with the majority that these statements
in this document should not have been held inadmissible,4 neither of these statements creates a triable issue
4

In opposing Defendants’ summary judgment motion below,
Plaintiff specifically argued that the police reports she submitted
are not hearsay under Federal Rule of Evidence 803(8). That
statement was sufficient to preserve this position, notwithstanding Plaintiff ’s subsequent failure to file any response to the evidentiary objections that Defendants submitted with their reply,
and the district court therefore erred in concluding that Plaintiff
forfeited her admissibility arguments concerning those reports.
We have explained that police reports are admissible under Rule
803(8) as to the reporting officer’s own observations, United States
v. Pazsint, 703 F.2d 420, 424 (9th Cir. 1983), and we have also
explained that statements made to a government official and

App. 72
as to de Guzman’s subjective awareness of Sandoval’s
medical predicament.
As to the first statement, de Guzman’s suggestion
that Sandoval should be sent to a “sobering tank” does
not support a reasonable inference that de Guzman
was subjectively aware that Sandoval faced a serious
medical need. If anything, it shows the exact opposite.
I agree with Plaintiff that this comment supports an
inference that de Guzman was aware that Sandoval
might be under the influence of something,5 but that is
not enough to carry Plaintiff ’s burden of proof. Plaintiff had to show that de Guzman was subjectively
aware that Sandoval was under the influence in a
manner that presented a serious medical need. De Guzman’s “sobering tank” comment is insufficient to permit a jury to draw that inference. On the contrary, the
suggestion that Sandoval should be removed from the
current cell adjacent to the nurses’ station (“Medical
Observation Cell #1” or “MOC1”) and sent to a sobering cell negates any suggestion that de Guzman
actually drew the inference that Sandoval faced a
recorded in an official report may also be admissible if they are
covered by a separate hearsay exception (or if they are not themselves hearsay), see United States v. Morales, 720 F.3d 1194, 1202
(9th Cir. 2013). Under this framework, any statements of de Guzman that are recorded in Rodriguez’s report would be admissible
against de Guzman as a non-hearsay opposing-party statement.
See Fed. R. Evid. 801(d)(2).
5
That inference is further supported by de Guzman’s comment, during his deposition, that he may have overheard an officer say “[s]omething like—‘I just found out that [Sandoval’s]
under the influence.’ ”

App. 73
serious medical need. Because de Guzman knew that
an inmate in a sobering cell would only be checked
every four hours, his suggestion that Sandoval could
be sent there reflects, at most, a subjective belief that
Sandoval was under the influence in a manner that did
not present a substantial risk of serious harm.6
Plaintiff argues that, in light of an additional statement in Rodriguez’s report, a reasonable jury could
find that de Guzman was aware that Sandoval’s condition was serious. Specifically, Plaintiff notes that, in his
report, Rodriguez stated that “Sandoval appeared to be
having withdrawal[ ] from drugs.” But as the district
court noted, Rodriguez’s report does not say that Rodriguez ever told de Guzman that he (Rodriguez)
thought Sandoval was experiencing withdrawal symptoms—much less that Sandoval was experiencing symptoms that suggested a substantial risk of serious harm.
None of the other evidence cited by Plaintiff would
permit a reasonable jury to find that de Guzman became subjectively aware that Sandoval’s situation
presented a substantial risk of serious harm. Plaintiff
points out that, in response to de Guzman’s suggestion
that Sandoval should be moved to a sobering cell,
6

The majority surmises that perhaps de Guzman knew that
Sandoval had a serious medical need but nonetheless wanted to
send him to a sobering cell because de Guzman “did not want to
deal with the hassle of providing” the necessary care. See Maj.
Opin. at 42 n.16. No record evidence supports the majority’s speculation, which provides no basis for denying summary judgment
here. See Nelson v. Pima Cmty. Coll., 83 F.3d 1075, 1081-82 (9th
Cir. 1996) (“mere allegation and speculation do not create a factual dispute for purposes of summary judgment”).

App. 74
Deputy Wilkinson and Corporal Powell relayed back to
de Guzman their view that Sandoval should stay in
MOC1, but Plaintiff does not point to any evidence that
Wilkinson or Powell ever told de Guzman that they
thought that Sandoval faced any specific, much less serious, medical risk. Plaintiff cites only Rodriguez’s report, but that report merely states that Wilkinson and
Powell “determined it would be better if Sandoval remained in [his] observation cell”; it does not state that
they provided any details as to why they had that view
(much less whether they had determined that Sandoval faced any sort of serious medical need).
Because Plaintiff failed to present sufficient evidence to show that de Guzman was subjectively aware
of Sandoval’s serious medical needs, de Guzman was
entitled to qualified immunity. I therefore dissent from
the majority’s reversal of the district court’s grant of
summary judgment to de Guzman.
2
Under the correct qualified immunity standards, I
conclude that Nurse Dana Harris was not entitled to
summary judgment.
Plaintiff has presented ample evidence to support
her theory that, under an objective standard, Harris
was grossly incompetent because she did not understand that in San Diego, the Emergency Medical Technicians (“EMTs”) that she had initially summoned
could not perform the Advanced Cardiac Life Support (“ACLS”) that Sandoval needed. But as explained

App. 75
earlier, the qualified immunity inquiry also has a
subjective component and requires Plaintiff to present sufficient evidence to establish that Harris was
subjectively aware that her actions were creating or
exacerbating a substantial risk of serious harm. I
agree with Plaintiff that the evidence in the summary
judgment record is sufficient to permit a jury to find
that Harris was subjectively aware that Sandoval was
having a seizure and that the seizure posed a substantial risk of serious harm, but that is not enough to show
that Harris acted with deliberate indifference. Rather,
Plaintiff had to show that Harris was subjectively
aware that her response to the situation was inadequate and placed Sandoval at a substantial risk of serious harm. But Plaintiff ’s above-described theory that
Harris was “[t]oo [i]ncompetent” to subjectively know
that EMTs could not perform ACLS is affirmatively inconsistent with the view that Harris subjectively drew
the inference that her actions were placing Sandoval
at a substantial risk of serious harm. Accordingly, under this view of the evidence, the very fact of Harris’s
subjective obliviousness would entitle her to qualified
immunity.
Nonetheless, I believe that the district court erred
in granting summary judgment to Harris. In my
view, the sharply conflicting evidence in the summary judgment record is sufficient to permit the alternative inference that Harris did subjectively know
that she needed to call 911 for paramedics (who could
perform ACLS) and that EMTs would be inadequate,
but that for whatever reason (e.g., panic, stubbornness,

App. 76
foolishness, etc.), she refused to do so. Although Harris
insisted that no one told her to call 911 or paramedics,
Plaintiff presented competing evidence that: (1) Deputy Matthew Andrade (who had himself been trained
as an EMT) told Harris two or three times that paramedics should be called; (2) very early into the emergency, Nurse Llamado concluded that “9-1-1 should be
called,” and she said out loud to Harris and the others
multiple times that Sandoval “has to go out 9-1-1”; (3)
after consulting with the supervising nurse (Shirley
Bautista), Llamado told Harris that “Shirley said he
has to go now 9-1-1”; and (4) Llamado confirmed that
calling paramedics was “[s]tandard nursing protocol”
at the jail in the case of a prolonged seizure. Based on
this evidence, a rational jury could readily conclude
that Harris well knew that she needed to call 911 and
inexplicably failed to do so. See Farmer, 511 U.S. at 842
(“Whether a[n] . . . official had the requisite knowledge
of a substantial risk is a question of fact subject to
demonstration in the usual ways, including inference
from circumstantial evidence.”). And, based on the
same evidence, a jury could reasonably conclude that
the resulting deprivation was “objectively . . . sufficiently
serious,” thereby satisfying the objective component of
then-existing law concerning deliberate indifference to
serious medical needs. Estate of Ford, 301 F.3d at 1049.
Moreover, I would further conclude that, under
then-existing law, it was clearly established that Harris’s conduct violated Sandoval’s constitutional rights.
Long before this incident, the Supreme Court had
held that, to show deliberate indifference to a serious

App. 77
medical need, “it is enough that the official acted or
failed to act despite his knowledge of a substantial risk
of serious harm.” Farmer, 511 U.S. at 842. Given that
the evidence here amply supports the view that Harris
subjectively knew that paramedics needed to be called
to avoid objectively serious harm to Sandoval, and
given that Harris’s behavior was so obviously objectively unreasonable, it follows that, “at the time of
[Harris’s] conduct, the law was ‘sufficiently clear’ that
every ‘reasonable official would understand that what
[s]he is doing’ is unlawful.” Wesby, 138 S. Ct. at 589
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011))
(emphasis added). Harris therefore violated clearly established law at the time she acted. See id.
The only remaining question is whether, under existing law, Harris deprived Sandoval of a constitutional
right. Pearson v. Callahan, 555 U.S. 223, 232 (2009). I
agree with the majority that Plaintiff presented sufficient evidence to permit a jury to find that Harris violated Sandoval’s constitutional rights under the nowgoverning objective test set forth in Gordon. See Maj.
Opin. at 39-40.
For the foregoing reasons, I concur in the judgment reversing the grant of summary judgment to
Harris.
3
For substantially similar reasons, I concur in the
judgment reversing the district court’s grant of summary judgment to Nurse Maria Llamado. Indeed,

App. 78
Plaintiff ’s evidence as to Llamado is, if anything, even
stronger than as to Harris. Llamado’s own deposition
testimony confirms that she was subjectively aware
that Harris was wrong in summoning only EMTs and
not paramedics. Llamado also admitted at her deposition that she should have called paramedics herself,
stating that she had “learned [her] lesson.” Under the
facts that could reasonably be found by the jury on this
record, Llamado violated Sandoval’s clearly established rights under then-existing law, and her actions
also violated Sandoval’s rights under current law.
Summary judgment for Llamado was therefore improper.
III
In my view, the district court correctly granted
summary judgment to the county on Plaintiff ’s § 1983
claims against it, and I therefore dissent from that aspect of the majority’s judgment.
Under Monell v. Department of Social Services,
436 U.S. 658 (1978), a local government entity “may not
be held liable under 42 U.S.C. § 1983, unless a policy,
practice, or custom of the entity can be shown to be a
moving force behind a violation of constitutional
rights.” Dougherty v. City of Covina, 654 F.3d 892, 900
(9th Cir. 2011). To establish such liability, Plaintiff
“must prove (1) that [Sandoval] possessed a constitutional right of which [he] was deprived; (2) that the municipality had a policy; (3) that this policy amounts to
deliberate indifference to [Sandoval’s] constitutional

App. 79
right; and, (4) that the policy is the moving force behind
the constitutional violation.” Id. (citation and internal
quotation marks omitted) (emphasis added). Plaintiff
contends that the county was deliberately indifferent
in having a policy or practice of using MOC1 as a
“mixed use” cell “for both correctional and medical
purposes” without imposing “appropriate safeguards,”
such as “routine medical monitoring, tracking logs and
proper . . . procedures” for transmitting information to
incoming nurses at the end of a given nurse’s shift. On
the record presented at summary judgment, this contention fails as a matter of law, and summary judgment was properly granted.
Negligence alone is insufficient to plead a constitutional tort, see County of Sacramento v. Lewis, 523
U.S. 833, 848-49 (1998), and Plaintiff concedes that she
must go further and show that the policy, practice, or
custom she challenges “amounts to deliberate indifference to the plaintiff ’s constitutional right,” Dougherty,
654 F.3d at 900 (emphasis added). The applicable
“deliberate indifference” standard for Monell claims,
however, differs from the above-discussed standard
that applied to the individual Defendants under
then-existing law for qualified immunity purposes:
whereas the latter applies both an objective and a subjective standard, the former is purely objective. See
Farmer, 511 U.S. at 840-41; Castro, 833 F.3d at 1076.
In the context of an analogous claim about inadequate
monitoring of jail cells, we held in Castro that the objective deliberate indifference standard for municipal
liability under § 1983 requires a showing that “ ‘the

App. 80
facts available to city policymakers put them on actual
or constructive notice that the particular omission is
substantially certain to result in the violation of the
constitutional rights of their citizens.’ ” Id. at 1076 (citation omitted); see also Board of Cnty. Comm’rs v.
Brown, 520 U.S. 397, 410 (1997) (“ ‘[D]eliberate indifference’ is a stringent standard of fault, requiring proof
that a municipal actor disregarded a known or obvious
consequence of his action.”).
Plaintiff failed to present sufficient evidence to
satisfy this demanding standard, and the county was
therefore entitled to summary judgment. Plaintiff ’s
evidence of prior confusion concerning why particular
inmates were placed in MOC1 may well support a
claim that the county was negligent,7 but that evidence
does not come close to showing that the county had
“ ‘actual or constructive notice’ ” that this practice was
“ ‘substantially certain’ ” to result in an unconstitutional disregard of a serious medical need. Castro, 833
F.3d at 1076 (citation omitted) (emphasis altered). The
fact that the county changed its practices concerning
MOC1 after this incident—even if admissible for
7

The Plaintiff opening brief cites as evidence of confusion a
comment by one of her experts that the county’s practice “created
a constant state of chaos and lack of communication between the
deputies and the nursing staff.” The expert’s lengthy report, however, cites nothing in the record to support this particular remark.
Nurse Llamado and Shirley Bautista, the charge nurse on the
night in question, also testified that the mixed-used nature of
MOC1 was confusing to nursing staff. However, this evidence of
confusion does not create a triable issue under the Castro standard.

App. 81
purposes going beyond merely proving that a policy,
practice, or custom existed, but see Conn, 591 F.3d at
1104 n.7 (applying Fed. R. Evid. 407 to cabin the use
of post-event practice)—does not establish that the
county had the pre-incident actual or constructive notice Castro requires. I therefore disagree with the majority’s finding that a reasonable jury could infer that
the county had actual or constructive knowledge that
its practices in regard to the MOC1 cell were substantially certain to result in an unconstitutional disregard
of a serious medical need.
Plaintiff contends that the constructive notice standard should not apply because here the county’s “policy
itself directs the unconstitutional action.” Plaintiff,
however, has presented no evidence that the policy itself is unconstitutional. In particular, to the extent that
Plaintiff contends that the county had an unconstitutional policy, practice, or custom to affirmatively and
completely ignore persons placed in MOC1, there is no
evidence that the county had such a policy: it is undisputed that the MOC1 cell is visible to personnel at the
nurses’ station; and, indeed, it is undisputed that
Sandoval’s eventual seizure and collapse onto the floor
was immediately detected.
For the foregoing reasons, I concur in the judgment in part and respectfully dissent in part.

App. 82
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
Case No.:
Plaintiffs, 3:16-cv-01004-BEN-AGS
ORDER:

ANA SANDOVAL, et al.,
v.

(1) GRANTING IN
PART DEFENDANTS’
MOTION FOR SUMDefendants. MARY JUDGMENT;
and

COUNTY OF
SAN DIEGO, et al.,

(2) REMANDING
PLAINTIFFS’ STATELAW CLAIMS TO
THE SAN DIEGO
SUPERIOR COURT
INTRODUCTION
(Filed Feb. 6, 2018)
Plaintiffs Ana Sandoval, individually and as successor in interest to Ronnie Sandoval, Ronnie Sandoval, Jr., and Josiah Sandoval (collectively “Plaintiffs”)
filed this civil rights action pursuant to 42 U.S.C.
§ 1983 following the in-custody death of Ronnie
Sandoval (“Sandoval”) while he was detained at the
San Diego Central Jail.
Plaintiffs allege that during Sandoval’s confinement, County of San Diego (“County”) employees Romeo
de Guzman, Dana Harris, and Maria Llamado (collectively, “individual Defendants”) were deliberately

App. 83
indifferent to Sandoval’s serious medical needs and liable for his wrongful death. Plaintiffs further allege
the Defendant County was deliberately indifferent to
Sandoval’s serious medical needs and liable for his
wrongful death due to its custom of using a verbal pass
down system and its failure to sufficiently train its employees in monitoring inhabitants placed in medical
observation cells.
PROCEDURAL HISTORY
On April 25, 2016, individual Defendants and Defendant County (collectively, “Defendants”) removed
Plaintiffs’ lawsuit from the Superior Court of California to this Court. (Docket No. 1.) Now pending is Defendants’ motion for summary judgment on all of
Plaintiffs’ claims. (Docket No. 20.) For the reasons set
forth below, Defendants’ motion is GRANTED in part.
BACKGROUND1
On February 22, 2014, San Diego Sheriff ’s Deputy
Henry Castro (“Deputy Castro”)2 conducted a probation compliance check at Sandoval’s residence, which
1

The Court’s reference to certain pieces of evidence is not an
indication that it is the only pertinent evidence relied on or considered by the Court. The Court has reviewed and considered all
the evidence submitted by the parties. In addition, Defendants’
evidentiary objections, to which Plaintiffs did not respond, are
sustained. (See Docket No. 25-2.)
2
Unless otherwise stated, the Court’s reference to a “Deputy” or other law enforcement officer is to a County of San Diego
Deputy Sheriff.

App. 84
resulted in Sandoval’s arrest for possession of methamphetamine and drug paraphernalia. (First Amended
Complaint (“FAC”) ¶ 15; Defs.’ Ex. A at p. 4.)3 Deputy
Castro transported Sandoval to the San Diego Central
Jail, where he was booked around 2:43 p.m. (FAC ¶ 16;
Defs.’ Ex. A at p. 5.) At the time of his arrest and booking, Sandoval “did not appear to be under the influence
of drugs or in medical distress.” (Defs.’ Separate Statement of Undisputed Material Facts (“SSUMF”) No. 1;
Pls.’ Response to SSUMF No. 1.)
At approximately 3:30 p.m., Deputy Matthew
Chavez was taking Sandoval’s fingerprints and noticed
Sandoval was sweating and appeared disoriented.
(Defs.’ Ex. C at p. 10; Pls.’ Ex. 2 at p. 39.) Deputy
Chavez asked Sandoval “if he was alright,” to which
Sandoval responded that he was cold, did not feel well,
and may be diabetic. (Defs.’ Ex. C at p. 10; Pls.’ Ex. 2 at
p. 40.) Deputy Chavez advised Deputy Bryan, who notified the intake nurse. (Defs.’ Ex. C at p. 11; Pls.’ Ex. 2
at pp. 40-41.) Deputy Bryan observed that Sandoval
“did not look well,” and asked if he was sick, to which
Sandoval responded “he was sick the week before but
was not at the moment.” (Defs.’ Ex. E at p. 16.) Deputy
Bryan also asked if Sandoval “had taken any drugs or
had been drinking recently,” which he denied. (Id.) Because Sandoval indicated that he may have diabetes,
Deputy Bryan inquired about the timing of his last

3

All page number references to the parties’ moving papers
in this Order refer to the page numbers generated by the CM/ECF
system.

App. 85
meal, and Sandoval told him it was “last night.” (Id. at
p. 17.)
The intake nurse arrived to test Sandoval’s blood
sugar level and determined that it was normal before
clearing him to continue the booking process. (Defs.’
Ex. C at p. 11, Ex. E at p. 16; Pls.’ Ex. 2 at p. 42.) Deputy
Chavez placed Sandoval in a holding cell to have his
booking photo retaken. At approximately 4:00 p.m.,
Deputy Bryan brought Sandoval two sack lunches.
(Defs.’ Ex. C at p. 11, Ex. E at p. 17; Pls.’ Ex. 2 at pp. 4243.)
At approximately 4:30 p.m., Sandoval was escorted to the forensics room to have his booking photograph taken. (Pls.’ Ex. 3 at p. 53.) Deputy Lavinia
Martinez observed Sandoval looking tired, and asked
him multiple times him “how he was feeling, what was
the matter, and if he had swallowed anything.” (Defs.’
Ex. F at p. 20; see also Pls.’ Ex. 3 at p. 53.) “Sandoval
became agitated” by Deputy Martinez’s questioning,
and “refused to answer any more questions about his
health.” (Pls.’ Ex. 3 at p 53.) Deputies Martinez and
Chavez determined that they should expedite Sandoval’s booking process so he could see the nurse on the
second floor. (Pls.’ Ex. 2 at pp. 43-44, Ex. 3 at p. 53.)
After Sandoval had his photo retaken, Deputy Chavez
escorted Sandoval to the second floor nurses’ station
“to have him more thoroughly evaluated.” (Id.)
Upon arriving at the second floor, Deputy Chavez
spoke with Defendant Romeo de Guzman (“Nurse de
Guzman”) and explained what he had observed during

App. 86
his contact with Sandoval. (Pls.’ Ex. 2 at pp. 43-44, Ex.
3 at p. 53.) Deputy Chavez told Nurse de Guzman he
had brought Sandoval to be evaluated, and Nurse de
Guzman asked Deputy Chavez to take Sandoval to
medical observation cell number one (hereinafter
“MOC1”) and told him he would “look at him.” (Pls.’ Ex.
2 at pp. 44-45.) Deputy Chavez notified Deputies Graham Wilkinson and Leonard Rodriguez that Sandoval
was placed in MOC1. (Pls.’ Ex. 3 at p. 53.)
At approximately 4:45 p.m., Deputy Wilkinson
watched Deputy Chavez place Sandoval in MOC1.
(Defs.’ Ex. G at p. 22; see also Pls.’ Ex. 3 at p. 53.)
Around this time, Nurse de Guzman checked Sandoval’s blood sugar level, which was determined to be
normal. (Pls.’ Ex. 4 at pp. 60-61, 65-66.) Nurse de Guzman’s shift ended around 11:00 p.m. During the rest
of his shift, Nurse de Guzman did not conduct any further checks or otherwise interact with Sandoval. (Pls.’
Ex. 4 at pp. 69, 72-73.) Deputy Wilkinson further observed Sandoval sweating and stating he did not feel
well. (Defs.’ Ex. G at p. 22.) Deputy Wilkinson asked
Sandoval if he was under the influence of narcotics or
alcohol, to which Sandoval responded “No.” (Id.) Deputy Wilkinson further asked if Sandoval needed anything, to which Sandoval replied “No, I just want to feel
better.” (Defs.’ Ex. G at p. 22.)
At approximately 7:30 p.m., Deputy Nathaniel Fox
contacted Sandoval in MOC1 and asked him why he
was in the cell; Sandoval stated he did not know.
(Docket No. 21, Defs.’ Ex. J at p. 2.) Deputy Fox asked
the screening nurses if they knew why Sandoval was

App. 87
held in the cell; none of them knew why. (Id.) Deputy
Fox was unable to ascertain which deputies had placed
Sandoval in the cell and returned to his duties, but periodically checked on Sandoval’s welfare throughout
his shift. (Id. at pp. 2-3.) Deputy Fox observed that
Sandoval “appeared lethargic but did not show any
signs of medical distress” until approximately 12:53
a.m. the following morning. (Id. at p. 3.)
Defendants Maria Llamado (“Nurse Llamado”)
and Dana Harris (“Nurse Harris”) began their shifts at
approximately 11:00 p.m. (Defs.’ Ex. I at pp. 29-30, Ex.
P at pp. 79-81.) Nurse de Guzman did not “pass down”
any information about Sandoval to Nurse Llamado or
Nurse Harris. (Pls.’ Ex. 4 at p. 73.) When Nurse de Guzman left the jail at 11:30 p.m., Sandoval was “sitting
up, awake, and not in distress.” (Defs.’ Ex. H at p. 26.)
Nurse Harris first noticed Sandoval in MOC1
within the first 20 minutes of her shift. (Defs.’ Ex. P at
pp. 83-85.) Nurse Harris saw Sandoval sitting upright
and leaning against the back wall. (Id. at pp. 84-85.)
Around 12:55 a.m., Sergeant Robert Shawcroft
was walking through the medical area at the San Diego County Jail and observed Sandoval sitting on the
bench in MOC1. (Defs.’ Ex. K at p. 54.) As he was looking in, Sandoval’s “eyes rolled back and he slumped
slightly to his left on the bench. [Sergeant Shawcroft]
immediately summoned Nurse Harris and other deputies into the cell.” (Id.; Pls.’ Ex. 7 at p. 121.) Sergeant
Shawcroft observed that Sandoval “appeared to be
having a seizure.” (Defs.’ Ex. K at p. 54; see also Pls.’

App. 88
Ex. 7 at p. 122.) Nurse Harris was the first nurse to
respond. Shortly after, Nurse Llamado, Deputy Nolan
Edge, and Deputy Matthew Andrade entered Sandoval’s cell.
Around 12:58 a.m., Nurse Harris assessed Sandoval’s condition and asked the deputies to call for Emergency Medical Transport (“EMTs”). (Defs.’ Ex. P at pp.
97, 105.) Around 1:10 a.m., while waiting for the arrival of the EMTs, Nurse Harris determined Sandoval’s
conditioned had worsened and requested an upgrade
for paramedics. (Id. at pp. 99, 105.) Although Sergeant
Shawcroft related to Nurse Harris that Sandoval may
have been seizing, based on her assessment of Sandoval’s symptoms, she did not suspect Sandoval was actually seizing at any point. (Id. at pp. 91-95.) Shortly
after 1:25 a.m., the EMTs arrived. (Id. at p. 105.)
Around 1:48 a.m., the paramedics arrived. Around 2:11
a.m., Sandoval was pronounced dead. (Id.) Sandoval’s
cause of death was later found to be acute methamphetamine intoxication. (Defs.’ Ex. M. at p. 61, Ex. N at
p. 70.)
The County of San Diego Office of the Medical
Examiner noted Sandoval’s “postmortem peripheral
blood methamphetamine concentration . . . was measured at 38 mg/L.” (Defs.’ Ex. M at p. 61; see also Defs.’
Ex. N at p. 70.) “A concentration of 38 mg/L is an astronomically high level of methamphetamine to find in
blood.” (Defs.’ Ex. M at p. 61.) “This level indicates Mr.
Sandoval ingested a dose of methamphetamine several
hundred times more than a typical recreational dose.”
(Defs.’ Ex. N at p. 70.)

App. 89
LEGAL STANDARD
Summary judgment is appropriate when “there is
no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a); see also Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 247-48 (1986). A fact is material if it
might affect the outcome of the suit under the governing law. Anderson, 477 U.S. at 248. “Factual disputes
that are irrelevant or unnecessary will not be counted.”
Id. A dispute is genuine if “the evidence is such that a
reasonable jury could return a verdict for the nonmoving party.” Id. In considering a summary judgment motion, the evidence of the nonmovant is to be believed,
and all justifiable inferences are to be drawn in his or
her favor. Id. at 255.
The moving party bears the initial burden of showing there are no genuine issues of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). It can do so
by negating an essential element of the non-moving
party’s case, or by showing that the non-moving party
failed to make a showing sufficient to establish an element essential to that party’s case, and on which the
party will bear the burden of proof at trial. Id. The
burden then shifts to the non-moving party to show
that there is a genuine issue for trial. Id. As a general
rule, the “mere existence of a scintilla of evidence” will
be insufficient to raise a genuine issue of material
fact. Anderson, 477 U.S. at 252. There must be evidence
on which the jury could reasonably find for the nonmoving party. Id.

App. 90
DISCUSSION
Plaintiffs assert claims under 42 U.S.C. § 1983
against the individual Defendants for violations of
Sandoval’s Fourteenth Amendment rights due to alleged deliberate indifference to his serious medical
needs, and claims against Defendant County for an alleged unconstitutional custom and inadequate training. Defendants’ move for summary judgment on the
grounds that the individual Defendants are entitled
to qualified immunity, Plaintiffs failed to raise a genuine issue of material fact to support their claims that
the individual Defendants’ conduct amounted to a
constitutional violation of Sandoval’s rights, and the
County’s custom and training did not cause violations
to Sandoval’s constitutional rights. The Court agrees
that summary judgment for Defendants is appropriate
for all of Plaintiffs’ federal claims.4

4

Plaintiffs also assert various claims under California state
law. In light of the conclusions of this Order, those claims are
remanded to the San Diego Superior Court. See 28 U.S.C.
§ 1367(c)(3) (providing that a district court may decline to exercise jurisdiction supplemental jurisdiction over remaining claims
where it has “dismissed all claims over which it has original jurisdiction”); Sanford v. MemberWorks, Inc., 625 F.3d 550, 561 (9th
Cir. 2010) (“[I]n the usual case in which all federal-law claims are
eliminated before trial, the balance of factors to be considered under the pendent jurisdiction doctrine—judicial economy, convenience, fairness, and comity—will point toward declining to
exercise jurisdiction over the remaining state-law claims.”).

App. 91
A. Deliberate Indifference to Serious Medical
Needs – Individual Defendants
“Section 1983 ‘is not itself a source of substantive
rights,’ but merely provides ‘a method for vindicating
federal rights elsewhere conferred.’ ” Albright v. Oliver,
510 U.S. 266, 271 (1994) (citation omitted in original).
To prevail on a Section 1983 claim, a plaintiff must
show: (1) the deprivation of any rights, privileges, or
immunities secured by the Constitution; (2) by a person acting under the color of state law. 42 U.S.C. § 1983.
The parties do not dispute that the individual Defendants acted under the color of law. Thus, the issue is
whether any of their conduct deprived Sandoval of his
constitutional rights.
“Inmates who sue prison officials for injuries suffered while in custody may do so under the Eighth
Amendment’s Cruel and Unusual Punishment Clause
or, if not yet convicted, under the Fourteenth Amendment’s Due Process Clause.” Castro v. Cnty. of Los Angeles, 833 F.3d 1060, 1067-68 (9th Cir. 2016) (en banc)
(citing Bell v. Wolfish, 441 U.S. 520, 535 (1979) (holding
that, under the Due Process Clause, a detainee may
not be punished prior to conviction)).
Here, it is undisputed that at the time of Sandoval’s death, he was a pretrial detainee. As such, Sandoval’s rights derive from the Due Process Clause of
the Fourteenth Amendment. Although Defendants’
briefing analyzes Sandoval’s rights under the Cruel
and Unusual Punishment Clause of the Eighth

App. 92
Amendment, the Court assumes Defendants intended
to advance their arguments under the correct clause.
“While a detainee’s rights arise under the Due
Process Clause of the Fourteenth Amendment, the
guarantees of the Eighth Amendment guide courts and
provide a minimum standard of care for determining
detainees’ rights, including the right to medical care.”
Frary v. Cnty. of Marin, 81 F. Supp. 3d 811, 824 (N.D.
Cal. 2015) (citing Or. Advocacy Ctr. v. Mink, 322 F.3d
1101, 1120 (9th Cir. 2003)). The Fourteenth Amendment “imposes, at a minimum, the same duty the
Eighth Amendment imposes: persons in custody have
the established right to not have officials remain deliberately indifferent to their serious medical needs.” Id.
(quoting Gibson v. Cnty. of Washoe, 290 F.3d 1175, 1187
(9th Cir. 2002) (internal quotation marks omitted; citation omitted in original), overruled on other grounds by
Castro, 833 F.3d 1060).
To prevail on a Fourteenth Amendment claim for
inadequate medical care, a detainee must show “deliberate indifference” to his or her “serious medical
needs.” See Lolli v. Cnty. of Orange, 351 F.3d 410, 419
(9th Cir. 2003) (applying “traditional Eighth Amendment standards” to Fourteenth Amendment claims
for failure to provide adequate care for serious medical needs claims). Deliberate indifference “includes
‘both an objective standard—that the deprivation was
serious enough to constitute cruel and unusual punishment—and a subjective standard—deliberate indifference.’ ” Colwell v. Bannister, 763 F.3d 1060, 1066 (9th
Cir. 2014) (quoting Snow v. McDaniel, 681 F.3d 978,

App. 93
985 (9th Cir. 2012), overruled in part on other grounds
by Peralta v. Dillard, 744 F.3d 1076 (9th Cir. 2014) (en
banc)).
1. Objective Standard – Serious Medical
Need
“To meet the objective element of the standard, a
plaintiff must demonstrate the existence of a serious
medical need.” Colwell, 763 F.3d at 1066 (citing Estelle,
429 U.S. at 104). A serious medical need exists if failure
to treat the injury or condition “could result in further
significant injury” or cause “the unnecessary and wanton infliction of pain.” Id. (quoting Jett v. Penner, 439
F.3d 1091, 1096 (9th Cir. 2006)).
Defendants’ do not contest the fact that Sandoval
had a serious medical need. While the parties dispute
whether treatment could have saved Sandoval’s life,
they do not dispute that the postmortem revealed that
Sandoval suffered from acute methamphetamine intoxication, which obviously resulted in “further significant injury” since it was left untreated. Colwell, 763
F.3d at 1066. Therefore, the Court is satisfied that no
genuine issues exist as to this element.
2. Subjective Standard – Deliberate Indifference
Here is where the Plaintiffs’ Section 1983 claims
fail. To meet the subjective standard, the prison official
must not only “be aware of facts from which the

App. 94
inference could be drawn that a substantial risk of serious harm exists,” but that person “must also draw the
inference.” Toguchi v. Chung, 391 F.3d 1051, 1057 (9th
Cir. 2004) (quoting Farmer, 511 U.S. at 837). “This ‘subjective approach’ focuses only ‘on what a defendant’s
mental attitude actually was.’ ” Id. (quoting Farmer,
511 U.S. at 839).
Deliberate indifference “may appear when prison
officials deny, delay or intentionally interfere with
medical treatment, or it may be shown by the way in
which prison physicians provide medical care.”
Hutchinson v. United States, 838 F.2d 390, 394 (9th Cir.
1988) (citing Estelle, 429 U.S. at 104-05). However,
“[m]ere negligence in diagnosing or treating a medical
condition, without more, does not violate a prisoner’s
Eighth Amendment rights.” Id. (citing Estelle, at 106).
To meet this standard, a prisoner must prove “more
than ordinary lack of due care for the prisoner’s interests or safety.” Snow, 681 F.3d at 985 (quoting Farmer,
511 U.S. at 835). “A prison official acts with ‘deliberate
indifference . . . only if the [prison official] knows of and
disregards an excessive risk to inmate health and
safety.’ ” Toguchi, 391 F.3d at 1057 (quoting Gibson, 290
F.3d at 1187); see also Lolli, 351 F.3d at 419.
As noted above, the two-element objective-subjective deliberate indifference standard for an Eighth
Amendment claim guides the Court’s determination of
the minimum standard of care for a pretrial detainee
such as Sandoval. Frary v, 81 F. Supp. 3d at 824 (citation omitted). Plaintiffs acknowledge the “traditional
understanding that a pretrial detainee’s claim for

App. 95
inadequate medical care is determined under the
Eighth Amendment’s subjective deliberate-indifference standard.” (Opp’n at p. 13.) Nevertheless, relying
on the Supreme Court’s decision in Kingsley v. Hendrickson, 135 S. Ct. 2466 (2015) and the Ninth Circuit’s
discussion of Kingsley in Castro v. County of Los Angeles, 833 F.3d 1060 (9th Cir. 2016) (en banc), Plaintiffs
urge the Court to apply a “pretrial detainee objective
standard” for both of the deliberate indifference elements of their inadequate medical care claim. (Opp’n
at pp. 13-15.) The Court does not interpret Kingsley or
Castro to justify deviation from concededly established
law.
In Kingsley, the Supreme Court held that courts
must apply an objective standard in determining
whether force is “excessive” in an excessive force claim
brought by a pretrial detainee under the due process
clause of the Fourteenth Amendment. Kingsley, 135
S. Ct. at 2472-73. As a result, a pretrial detainee bringing an excessive force claim under the due process
clause of the Fourteenth Amendment is not required to
prove the defendant’s state of mind, and need only
show “the force purposely or knowingly used against
him was objectively unreasonable.” Id. at 2473.
In Castro, the Ninth Circuit found Kingsley’s reasoning required it to overrule its decision in Clouthier
v. County of Contra Costa, 591 F.3d 1232 (9th Cir. 2010)
“to the extent that it identified a single deliberate indifference standard for all § 1983 claims and to the extent that it required a plaintiff to prove an individual
defendant’s subjective intent to punish in the context

App. 96
of a pretrial detainee’s failure-to-protect claim.” Castro, 833 F.3d at 1070. Noting Kingsley “did not squarely
address whether the objective standard applies to all
kinds of claims by pretrial detainees, including both
excessive force claims and failure-to-protect claims,” it
found enough similarities between these claims to warrant extending Kingsley’s holding to failure-to-protect
claims. Castro, 833 F.3d at 1069-70 (“On balance, we
are persuaded that Kingsley applies, as well, to failureto-protect claims brought by pretrial detainees against
individual defendants under the Fourteenth Amendment. Excessive force applied directly by an individual
jailer and force applied by a fellow inmate can cause
the same injuries, both physical and constitutional.
Jailers have a duty to protect pretrial detainees from
violence at the hands of other inmates, just as they
have a duty to use only appropriate force themselves.”)
The Court is not persuaded that these cases
change its analysis of Plaintiffs’ claims. First, neither
Kingsley nor Castro overruled or otherwise discussed
application of an objective standard for determining a
defendant’s mental state in the context of the claim at
issue here, i.e., an inadequate medical care claim
brought under the due process clause of the Fourteenth Amendment. Second, it appears the Ninth Circuit has declined to reach this issue in at least three
cases since Castro was decided.5
5

See Edwards v. Mondora, 700 F. App’x 661, 663 (9th Cir.
2017) (“The district court properly granted summary judgment on
Edwards’ constitutionally inadequate medical care claims because, under any potentially applicable standard, Edwards failed

App. 97
Plaintiffs’ also rely on three district court cases for
their assertion that “[s]ome district courts have applied Castro’s reasoning to pretrial detainees’ due process claims for inadequate medical care.” (Opp’n at p.
14.) In so doing, Plaintiffs mischaracterize or misconstrue the first decision. The second and third are unpersuasive.
The
first,
Guerra
v.
Sweeney,
No.
113CV01077AWIBAMPC, 2016 WL 5404407, at *4
(E.D. Cal. Sept. 27, 2016), did not conclude that Castro’s objective standard should be applied. Rather, it
discussed what the elements of an inadequate medical
care claim would “look like” based on Castro’s reasoning, before concluding: “Although the standard by
which Plaintiff ’s deliberate indifference to a serious
medical condition claim is judged is subject to dispute,
even assuming that the above-listed test applies,
Plaintiff ’s claim fails.” Id. at *3-4 (emphasis added).
to raise a genuine dispute of material fact as to whether any of
the defendants knew of and disregarded an excessive risk to Edwards’ health.”) (citations omitted; emphasis added); Darling v.
Los Angeles Cnty. Sheriff ’s Dep’t, 695 F. App’x 216, 217 (9th Cir.
2017) (“The district court properly dismissed Darling’s claims for
inadequate medical care and unconstitutional conditions of confinement because under any potentially applicable standard, Darling failed to allege facts sufficient to show that defendants knew
of and disregarded an excessive risk to her health or safety.”) (citation omitted; emphasis added); Nyland v. Calaveras Cnty. Sheriff ’s Jail, 688 F. App’x 483, 485 (9th Cir. 2017) (“Dismissal of
Nyland’s claim of constitutionally inadequate medical care was
proper because under any potentially applicable standard,
Nyland failed to allege facts sufficient to show that defendants
knew of and disregarded an excessive risk to his health.”) (citations omitted; emphasis added).

App. 98
Moreover, Guerra noted, “[a]fter Castro, most district
courts in this circuit have continued to apply the
Eighth Amendment standard to pretrial detainees’
claims of injury resulting from untreated serious medical needs.”6 Id. at *3.
In the second case, Weishaar v. County of Napa,
the district court assumed without discussion that
Castro required courts apply an objective standard for
all claims alleging deliberate indifference under the
Fourteenth Amendment. See id., No. 14-CV-01352-LB,
2016 WL 7242122, at *1 (N.D. Cal. Dec. 15, 2016).7 But
6

Guerra listed: James v. Lee, 2016 WL 5338074, *4 (S.D. Cal.
Sept. 23, 2016); Atayde v. Napa State Hosp., 2016 WL 4943959,
*4 (E.D. Cal. Sept. 16, 2016); Kelley v. City of Henderson, 2016 WL
4473420, *3 (D. Nev. Aug 24, 2016); see also Estate of Sandra Vela
v. Cnty. of Monterey, 2016 WL 4678300, *3 (N.D. Cal. Sept. 7,
2016). Guerra, 2016 WL 5404407, at *3.
7
“The first issue is whether, as an arrested probation violator, Mr. Forest was a convicted inmate or a pretrial detainee for
§ 1983 purposes. The applicable § 1983 test will depend on this
decision. If Mr. Foster was a convicted prisoner, then his § 1983
claim would arise under the Cruel and Unusual Punishment
Clause of the Eighth Amendment; if he was a pretrial detainee,
then his § 1983 claim lies under the Due Process Clause of the
Fourteenth Amendment. E.g., Castro, 833 F.3d at 1067-68 (citing
Bell v. Wolfish, 441 U.S. 520, 535 (1979)). The difference is significant. Under both clauses,’ Mr. Foster ‘must show that the prison
officials acted with ‘deliberate indifference.’ Castro, 833 F.3d at
1068. The tests for identifying ‘deliberate indifference’ are, however, different under these respective clauses. The Eighth
Amendment test contains a subjective component, whereas the
Fourteenth Amendment test is ‘purely objective.’ Id. at 1067-68,
1070-71 (discussing, inter alia, Kingsley v. Hendrickson, 135
S. Ct. 2466 (2015)).” Weishaar, 2016 WL 7242122, at *6 (internal
quotation marks omitted).

App. 99
Castro expressly denounced a single de facto deliberate
indifference standard for all section 1983 claims. See
Castro, 833 F.3d at 1070 (overruling Clouthier “to the
extent that it identified a single deliberate indifference
standard for all § 1983 claims”). The Court respectfully
disagrees with the district court’s assumption, and
notes Plaintiffs do not advance this contention.
The third case, Borges v. City of Eureka, recognized
that Castro “did not specifically address whether this
new objective ‘deliberate indifference’ test should apply specifically to pretrial detainees’ Fourteenth
Amendment claims arising from untreated serious
medical needs.” No. 15-CV-00846-YGR, 2017 WL
363212, at *9 (N.D. Cal. Jan. 25, 2017). It concluded
that because: (1) “the Ninth Circuit has long analyzed
claims that government officials failed to address pretrial detainees’ serious medical needs using the same
‘deliberate indifference’ standard” as failure-to-protect
detainees, and (2) Castro “expressly overruled [Clouthier, supra, an inadequate medical care claim case] . . .
for interpreting ‘deliberate indifference’ as requiring
proof of the officer’s subjective intent to punish,” Castro’s objective “deliberate indifference” test was “an
appropriate lens through which to evaluate the [inadequate medical care] claim.” Borges, 2017 WL 363212,
at *9 (internal citations omitted). The Court again respectfully disagrees with the district court’s reasoning.
As discussed above, Castro overruled Clouthier “to
the extent that it identified a single deliberate indifference standard for all § 1983 claims,” but in particular
in the context of a pretrial detainee’s failure-to-protect

App. 100
claim.” Castro, 833 F.3d at 1070 (emphasis added).
Simply put, neither Kingsley nor Castro discussed application of an objective standard in the context of
Plaintiffs’ inadequate medical care claim.
In sum, because the Court is not convinced Kingsley and Castro change its analysis of Plaintiffs’ claims,
it shall apply the subjective standard for deliberate indifference set forth above. Defendants assert none of
the individual Defendants were aware that Sandoval
had a serious medical need and Plaintiffs do not present any direct evidence to the contrary. Thus, the
Court must determine whether the circumstantial evidence offered presents a triable issue of material fact
as to any of the individual Defendants’ knowledge of
Sandoval’s serious medical need. Reviewing the admissible evidence in the light most favorable to Plaintiffs,
the Court finds Plaintiffs have failed to raise a triable
issue of material fact for each of their claims against
each individual Defendant.
a) Defendant Nurse de Guzman
As explained above, the undisputed evidence supports an objective finding that Sandoval suffered a
serious medical need: acute methamphetamine intoxication. However, Plaintiffs do not argue that Nurse de
Guzman should have been aware of this need. Instead,
they vaguely argue that “[Sandoval’s] condition appeared to be serious enough for Deputy Chavez to have
contacted him – twice. [Sandoval] was sweating profusely, disoriented, and looked ill.” (Opp’n at p. 16.)

App. 101
Plaintiffs further argue the evidence “supports the contention that a reasonable nurse would have been
aware” Sandoval was suffering from “drug withdrawals”8 or “diabetic complications, each being a serious
medical condition.” (Id. at pp. 16-17.) Regardless of
which serious medical need, the Court finds Plaintiffs
have not presented admissible evidence to establish a
triable issue of material fact that Nurse de Guzman
was actually aware Sandoval had a serious medical
need.
It is undisputed that Nurse de Guzman first interacted with Sandoval around 4:30 p.m. on the day of his
arrest when Deputy Chavez contacted him to test
Sandoval’s blood sugar level. Deputy Chavez testified
at his deposition that when he contacted Nurse de
Guzman, he told Nurse de Guzman he had observed
Sandoval sweating, appearing lethargic and confused,
and had brought him up to be evaluated. (Pls.’ Ex. 2 at
pp. 43-44.)9 He also told Nurse de Guzman that Sandoval “had been cleared by the medical staff downstairs,
but there was still something going on so [Nurse de
Guzman] needed to look at him more thoroughly.” (Id.
at p. 49.) Nurse de Guzman directed him to put Sandoval in MOC1, and said he would “take a look at him.”
(Id. at pp. 44-45.)
8

Plaintiffs did not explain whether acute methamphetamine
intoxication and drug withdrawals present the same symptoms or
would receive the same type of treatment.
9
Plaintiffs’ appear to have underlined portions of their deposition transcripts. The Court’s quotation of their deposition exhibit omits the emphasis for ease of reading.

App. 102
At his deposition, Nurse de Guzman denied recollection of Deputy Chavez’s statements regarding his
observations of Sandoval. (Pls.’ Ex. 4 at p. 61.) Instead,
he recalled Deputy Chavez asked him to perform a
blood sugar test, and that Sandoval looked “fine” and
“okay” at that moment. (Id. at pp. 60-61.) In his declaration in support of Defendants’ motion for summary
judgment, Nurse de Guzman stated he asked Sandoval
if he was taking any medication, which Sandoval denied. (Defs.’ Ex. H at p. 25.) Nurse de Guzman also
asked if Sandoval was “ok” and Sandoval said “Yes.”
(Id.) Nurse de Guzman observed Sandoval as “alert, coherent, ambulatory, and not in any form of distress.”
(Id. at p. 26) After Nurse de Guzman tested Sandoval’s
blood sugar level, which was normal, he saw Sandoval
approximately three times during the rest of his shift,
finding “there was nothing to note about his condition.”
(Id.) When Nurse de Guzman left work at 11:30 p.m.,
“Sandoval was in the holding cell, sitting up, awake,
and not in distress.” (Id.) When his shift ended, Nurse
de Guzman did not pass down any information about
Sandoval because he did not believe he was being held
in MOC1 for a medical reason. (Pls.’ Ex. 4 at p. 73.)
In a conclusory fashion, Plaintiffs argue “it was incumbent on DeGuzman [sic] to continue to assess
Sandoval to find the root cause of [Sandoval’s] medical
issue” after Nurse de Guzman “ruled out the most
obvious cause of the symptoms” by finding his blood
sugar level was normal. (Opp’n at p. 16.) The Court disagrees. A jail is not a hospital emergency room. Sandoval was not a patient presenting to a medical care

App. 103
provider requesting relief from symptoms of an unknown ailment. In such a scenario, Sandoval would
presumably be truthful and informative to the provider to aid the determination and appropriate course
of treatment for his ailment.
In contrast, here Sandoval was being assessed as
part of the booking process after he was arrested for a
suspected probation violation. It is undisputed that
Sandoval did not advise any prison official of his drug
overdose condition, or vocalize a request for treatment.
Nurse de Guzman’s obligation to provide adequate
medical care is conditioned upon his determination
that Sandoval had a serious medical need. Moreover,
the undisputed evidence shows Nurse de Guzman’s efforts to discover Sandoval’s serious medical need were
thwarted, not only because Sandoval failed at any time
to advise him (or any of the other deputies and medical
staff ) of his drug overdose condition, but also because
Sandoval lied and denied his use of drugs to Nurse de
Guzman.
Plaintiffs also argue, without citing to any evidence (admissible or otherwise), that approximately
thirty minutes after Nurse de Guzman tested Sandoval’s blood sugar, Nurse de Guzman asked Deputies
Rodriguez and Wilkinson why they would not take
Sandoval out of MOC1 and the deputies stated it was
because Sandoval was “under the influence.” (Opp’n at
p. 16.) According to Plaintiffs, Deputy Rodriguez “told
DeGuzman [sic] that Sandoval was ‘shaking mildly . . .
[and] appeared to be having withdrawals from drugs.’ ”
(Id.) They then conclude “[a]t this point, six deputies

App. 104
agreed [Sandoval] needed further medical treatment,
two of them stating that [Sandoval] was having withdrawals.” (Id.) Viewing the evidence in a light most favorable to Plaintiffs, the Court finds neither Plaintiffs’
assertions nor their conclusion are supported by the
evidence.
First, there is no admissible evidence that any
deputy expressly told Nurse de Guzman that Sandoval
appeared to, or was undergoing, drug withdrawals.
Nor does the inadmissible evidence establish this fact;
Deputy Rodriquez’s report states: “Deputy Wilkinson
asked Sandoval if he was under the influence of drugs
or alcohol and he stated he was not. I noticed Sandoval
was shaking mildly, so I asked him to sit on the bench.
Sandoval appeared to be having withdrawal from
drugs.” (Pls.’ Ex. 5 at p. 79.) Even if the Court considered Deputy Rodriguez’s report, contrary to Plaintiffs’
assertion this statement does not suggest Deputy Rodriguez explicitly advised Nurse de Guzman that
Sandoval appeared to be, or was undergoing drug withdrawals. Nor does any admissible evidence corroborate
this exchange to support such an inference.
Second, the evidence indicates Nurse de Guzman
consciously considered whether Sandoval was under
the influence of drugs or alcohol. During Nurse de Guzman’s deposition, when asked why he told a detective
Sandoval “looked like he may have been under the influence,” Nurse de Guzman responded:
[T]his is what I remember. When the inmates
ask me to check it – I ask the deputy to place

App. 105
in one of the holding cells. The officer – the
deputy is asking that kind of question to Mr.
Sandoval, you know, something like “Are you
under the influence of or anything?” I asked
him, too, you know. Like for blood, sugar check
– “Are you okay?” Something like that. But I
don’t see anything. Nothing is under the influence of drugs [sic].
(Pls.’ Ex. 4 at p. 62.) Nurse de Guzman testified that
“someone may have said [Sandoval was] under the
influence,” but “[d]uring that time . . . [he] did not see
anything that [Sandoval was] under the influence of
drugs [sic].” (Id. at p. 64.) Nurse de Guzman further
testified that “my observation is very clear that during
my encounter with Mr. Sandoval, I don’t see anything
that warranted to be sent to the hospital or sent to the
doctor [sic].” (Id. at p. 65.) Thus, based on the undisputed evidence offered, Plaintiffs’ assertion that Nurse
de Guzman should have recognized Sandoval was experiencing drug withdrawals is unfounded.
Plaintiffs’ contention that multiple deputies believed Sandoval needed “additional medical treatment”
is also unsupported by the evidence. Although multiple
deputies expressed concern for Sandoval’s wellbeing,
the admissible evidence does not indicate that their
concern was based on their belief that Sandoval had a
serious medical need. Deputy Chavez testified that after the intake nurse found Sandoval’s blood sugar level
normal and Sandoval was given some food, he advised
Deputy Martinez of his observations that Sandoval
“looked ill.” (Pls.’ Ex. 2 at pp. 41-43.) Deputy Martinez

App. 106
directed him to bring Sandoval to the nurses’ station
“to have him thoroughly evaluated.” (Id. at p. 43-44.)
At most, this evidence creates a genuine issue as to
whether Deputy Chavez and the other deputies were
concerned that Sandoval “looked ill” because he was
sweaty, lethargic, and appeared somewhat confused
and thought me hay require additional evaluation.
However, Plaintiffs have not created a genuine issue or
established Sandoval’s symptoms were “obvious” signs
of a serious medical condition requiring medical treatment. Gibson, 290 F.3d at 1197 (acknowledging that a
plaintiff may demonstrate that officers “must have
known” of an obvious risk of harm).
In other words, Deputy Chavez’s concern for Sandoval’s health, without more, does not establish Deputy
Chavez believed Sandoval had a presently occurring
serious medical need, other than perhaps diabetes
(which was belied by the normal blood sugar level
tests), let alone a deadly acute methamphetamine intoxication. Indeed, in his deposition, Deputy Chavez
expressly denied ever forming the belief that Sandoval
“had a potential drug problem” or stating this belief to
Nurse de Guzman. (Id. at pp. 47-48.)10
10

Q. Now that you reviewed your report and refreshed your
recollection, can you tell me what you can recall about that piece
of communication between you and Mr. Sandoval.
A. He did say that he was very cold and me seeing that he was
sweating, I thought that was odd.
Q. So he’s telling you “I am just really cold,” but he’s sweating
profusely?
A. Correct.

App. 107
The Court concludes Plaintiffs have failed to raise
at least a genuine issue that Nurse de Guzman had
knowledge that Sandoval was experiencing diabetic
complications, drug withdrawals, acute methamphetamine intoxication, or had any other serious medical
need. As a result, they have failed to raise a triable
issue of material fact regarding Nurse de Guzman’s
deliberate indifference. Toguchi, 391 F.3d at 1057. Defendants’ motion for summary judgment as to Plaintiffs’ claim against Defendant Nurse de Guzman is
therefore GRANTED.
b) Defendant Nurse Llamado
Unlike Defendant Nurse de Guzman, the Court
finds the undisputed evidence supports the inference
that Defendant Nurse Llamado was aware that Sandoval had a serious medical need. However, Nurse
Llamado did not interact with Sandoval until she was
Q. At any point, did that then harken back to your POST training when you started thinking, Well [sic], sweating profusely and
complaining of being cold, signs and symptoms of drug intoxication? Did you make that correlation?
A. No.
Q. At any time did you express to Nurse de Guzman that you
thought that Sandoval was a potential – had a potential drug
problem?
A. No.
Q. You never made that correlation, right?
A. Right. Sandoval doesn’t appear to be at first glance what you
would typically picture someone who has a drug problem.
Q. Especially not a meth problem?
A. Correct.

App. 108
alerted to his fall by Defendant Nurse Harris. (Pls.’ Ex.
12 at pp. 156-57.) She testified at her deposition that
“standard nursing protocol” for a nurse would be to call
for paramedics when observing a person undergoing a
“prolonged seizure.” (Id. at pp. 158-59.) Nurse Llamado
further testified that “[i]t looked like” Sandoval was
undergoing a “longer seizure,” which prompted her to
suggest calling paramedics pursuant to that protocol.
(Id.) It is undisputed that a prolonged seizure could result in “further significant injury.” Thus, for purposes
of determining the instant summary judgment motion,
the Court finds these facts sufficient to establish Nurse
Llamado’s knowledge. Colwell, 763 F.3d at 1066.
However, as stated above, knowledge of a serious
medical need alone is insufficient to defeat summary
judgment. Plaintiffs’ must also present evidence that
Nurse Llamado was deliberately indifferent to Sandoval’s serious medical need. Toguchi, 391 F.3d at 1057.
The Court finds Plaintiffs have failed to offer sufficient
evidence to support their claim.
At her deposition, Nurse Llamado testified that
after she recognized Sandoval looked like he was undergoing a prolonged seizure, she responded by suggesting the responders call paramedics. (Pls.’ Ex. 12 at
p. 158.) When Nurse Harris decided to call the EMTs,
Nurse Llamado deferred to her decision because Nurse
Harris was the “team leader” as she was the “first one
on site.” (Id. at pp. 159-60.) Nurse Llamado understood
Nurse Harris’s decision was based on Nurse Harris’s
assessment of Sandoval’s condition. (Id.)

App. 109
Next, Nurse Llamado filled out the paperwork for
the EMTs, and phoned and sent paperwork to her superior, Nurse Bautista. (Id. at pp. 160-61.) After Nurse
Llamado explained what she had seen to Nurse Bautista, Nurse Bautista told her “[Sandoval] has to go out
9-1-1,” which she relayed to Nurse Harris. (Id. at pp.
161-62.) Although Nurse Harris acknowledged she
should have called for paramedics herself, when asked
why she did not say “I am going to [call the paramedics” or “t[old] a deputy to do it,” Nurse Llamado stated
she “did not know what happened to [her] that time,”
that she did not want to “overrule” Nurse Harris, and
that if it happened again, she would call 9-1-1. (Id. at
p. 165.)
Viewing the evidence in the most favorable light
to Plaintiffs, the Court is not convinced that Plaintiffs
have raised a question of material fact to prove Nurse
Llamado was deliberately indifferent. Although Nurse
Llamado admitted she did not follow the nursing protocol or Nurse Bautista’s directive by calling for paramedics herself, on at least two occasions she voiced her
opinion that paramedics be called. She also filled out
the necessary paperwork and advised her superior of
the situation. Additionally, she testified that she decided to defer to Nurse Harris’s assessment of the situation because Nurse Harris was the “first responder”
and the “team leader.” At most, these facts suggest an
inference of negligence, but negligence is insufficient to
establish the more egregious deliberate indifference
element of Plaintiffs’ claim. M.H. v. Cnty. of Alameda,
62 F. Supp. 3d 1049, 1076 (N.D. Cal. 2014) (quoting

App. 110
Hutchinson, 838 F.3d at 394) (“mere negligence in diagnosing or treating a medical condition, without
more, does not violate a prisoner’s Eighth Amendment
rights.”); see also Wood v. Housewright, 900 F.2d 1332,
1334 (9th Cir. 1990) (“While poor medical treatment
will at a certain point rise to the level of constitutional
violation, mere malpractice, or even gross negligence,
does not suffice.”).
In short, the Court finds Plaintiffs have failed to
establish the existence of a genuine issue of material
fact such that a reasonable trier of fact could find
Nurse Llamado acted with deliberate indifference. Defendants’ motion for summary judgment as to Plaintiffs’ claim against Defendant Nurse Llamado is
GRANTED.
c) Defendant Nurse Harris
In contrast to Defendant Nurse Llamado, Defendant Nurse Harris did not make a determination that
Sandoval was undergoing a seizure, prolonged or
otherwise. (Pls.’ Ex. 13 at p. 179.) However, the undisputed facts establish that after Nurse Harris responded to Sandoval’s fall and assessed his condition,
she did determine EMTs were necessary and ordered
a call be placed. (Pls.’ Ex. 12 at pp. 158-60.) Shortly
thereafter, Nurse Harris determined Sandoval’s condition required “upgrad[ing] to paramedics,” and ordered
they be called. (Defs.’ Ex. P at pp. 99-100.) Viewing the
facts in light most favorable to Plaintiffs, the Court
finds these facts sufficient to demonstrate Nurse

App. 111
Harris at least suspected that Sandoval had a serious
medical need.
However, as with Defendant Nurse Llamado, the
Court finds Plaintiffs have not established Nurse
Harris acted with deliberate indifference toward Sandoval’s serious medical need. Quite the contrary.
Plaintiffs rely on the opinions of Deputy Andrade,
Defendant Nurse Llamado, and Charge Nurse Bautista, all of whom individually concluded Sandoval’s
condition required a call to the paramedics at the first
instance. (See Opp’n. at p. 21.) In her deposition, Nurse
Harris denied recollection of being advised that paramedics rather than EMTs should be called. (Pls.’ Ex. 13
at p. 181.) Even assuming Nurse Harris had been so
advised, the Court agrees with Defendants that Plaintiffs’ arguments amount to a disagreement over the
Nurses’ opinions about appropriate medical care,
which does not rise to deliberate indifference. Colwell,
763 F.3d at 1068 (quoting Snow, 681 F.3d at 987) (“A
difference of opinion between a physician and the prisoner—or between medical professionals—concerning
what medical care is appropriate does not amount to
deliberate indifference.”) (emphasis added). Indeed,
the essence of Plaintiffs’ argument is that Nurse
Harris must have acted with deliberate indifference
because she was the only witness who did not agree
that Sandoval showed seizure activity and/or initially
needed paramedics. But this is not the standard.
To show deliberate indifference, Plaintiffs “must
show that the course of treatment the doctors chose

App. 112
was medically unacceptable under the circumstances”
and Nurse Harris “chose this course in conscious disregard of an excessive risk to [Sandoval’s] health.” Id.
(quoting Snow, 681 F.3d at 988) (internal citation and
quotation marks omitted; emphasis added). Even assuming for the sake of argument that Nurse Harris’s
course of treatment was “medically unacceptable under the circumstances,” the Court finds Plaintiffs have
not established a genuine issue of material fact that
Nurse Harris’s decisions were made with “conscious
disregard of an excessive risk” to Sandoval’s health. Id.
On the contrary, the undisputed evidence demonstrates that Nurse Harris immediately responded to
Sandoval’s fall and determined a course of care according to her assessment of his condition. (Pls.’ Ex. 12 at
pp. 158-60.) Based on her assessment, Sandoval was
not experiencing a prolonged seizure or any other seizure activity, and did not initially require paramedic
intervention. (Defs.’ Ex. P at pp. 99-100.) At her deposition, Nurse Harris acknowledged that other persons
had told her Sandoval was seizing, but explained her
belief that they were people “with no medical training.”
(Pls.’ Ex. 13 at p. 180.) Nevertheless, she testified that
she accounted for their observations in assessing
Sandoval’s condition. (Id.) During the course of her
treatment of Sandoval, she determined an upgrade to
paramedics was necessary, and ordered they be called.
(Id.)
In sum, Plaintiffs have failed to raise a genuine
issue of material fact regarding Nurse Harris’s deliberate indifference to Sandoval’s serious medical need.

App. 113
Accordingly, Defendants’ motion for summary judgment as to Defendant Nurse Harris is GRANTED.
3. Qualified Immunity
Alternatively, Defendants assert that even if there
is a genuine issue of material fact, the individual Defendants are entitled to qualified immunity. The Court
agrees.
Qualified immunity serves to shield government
officials “from liability for civil damages insofar as
their conduct does not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.” Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982). It attaches when an official’s
conduct “does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” White v. Pauly, 137 S. Ct. 548, 551
(2017) (quoting Mullenix v. Luna, 136 S. Ct. 305, 308
(2015)) (internal quotation marks omitted). Additionally, qualified immunity protects “all but the plainly incompetent or those who knowingly violate the law.” Id.
In determining whether an officer is entitled to
qualified immunity, the court considers: (1) whether
there has been a violation of a constitutional right, and
(2) whether that right was clearly established at the
time of the officer’s alleged misconduct. C.V. by &
through Villegas v. City of Anaheim, 823 F.3d 1252,
1255 (9th Cir. 2016). Both prongs must be present for
the officer to be liable; otherwise, he or she is entitled
to immunity. A party opposing application of qualified

App. 114
immunity need not point to a case directly on point; but
“for a right to be clearly established, ‘existing precedent must have placed the statutory or constitutional
question beyond debate.’ ” White, 137 S. Ct. at 551
(quoting Mullenix, 136 S. Ct. at 308) (internal quotation marks omitted).
The Supreme Court recently reiterated “the
longstanding principle that ‘clearly established law’
should not be defined ‘at a high level of generality.’ ” Id.
at 552 (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 742
(2011)). Rather, “the clearly established law must be
‘particularized’ to the facts of the case.” Id. (citing
Anderson v. Creighton, 483 U.S. 635, 640 (1987)).
“Otherwise, ‘[p]laintiffs would be able to convert the
rule of qualified immunity . . . into a rule of virtually
unqualified liability simply by alleging violation of extremely abstract rights.’ ” Id. (quoting Anderson, 483
U.S. at 639).
Looking at the record as a whole, the evidence indicates that during the booking process, Sandoval appeared sweaty, lethargic, and somewhat confused.
Several deputies expressed their concern by approaching Sandoval and asking him whether he was under
the influence of any drugs or alcohol and if he was okay.
Sandoval steadfastly denied drug or alcohol use, despite having ingested “a dose of methamphetamine
several hundred times more than a typical recreational dose.” (Defs.’ Ex. N at p. 70.) “Sandoval became
agitated” by a deputy’s questioning, and “refused to answer any more questions about his health.” (Pls.’ Ex. 3
at p 53.) Although he mentioned he might be diabetic,

App. 115
after receiving two normal blood sugar test results, he
never advised anyone, let alone the individual Defendants, of his ultimately life-threatening condition. Up
until his collapse, Sandoval did not present any symptoms to alert the jail staff that he had a serious condition. After he collapsed, he received prompt medical
attention pursuant to the team leader/first-responder’s
assessment of his condition. Although some of the jail
staff disagreed about whether Sandoval was experiencing prolonged seizures, Plaintiffs provide no evidence to support the individual Defendants’ conscious
disregard for an excessive risk to Sandoval’s health.
Sandoval’s cause of death was determined after the
fact to be acute methamphetamine intoxication.
Even if the Court were to hypothetically assume
Plaintiffs established a constitutional violation, qualified immunity applies to each of the individual Defendants because Sandoval’s right to receive adequate
medical care for an unknown serious medical need was
not clearly established at the time of the alleged misconduct. Plaintiffs only generally assert that “[a]t the
time of [Sandoval’s] death, it was clearly established
that a pretrial detainee had a constitutional right to
medical treatment.” (Opp’n at p. 23.) In their individual analysis of the individual Defendants’ conduct,
Plaintiffs only provide their own legal conclusions that
the individual Defendants’ conduct constituted constitutional violations under clearly established law; they
cite no case law “particularized” to the facts of their
case. (Id. at pp. 23-24.) Nor has the Court’s own research revealed case authority to support Plaintiffs’

App. 116
contentions that any of these facts give rise to a constitutional violation.
Simply put, Plaintiffs have failed to establish that
the individual Defendants’ conduct amounted to a constitutional violation under clearly established law at
the time of Sandoval’s death. Thus, there was nothing
further of which they needed to be aware. Accordingly,
the individual Defendants are entitled to qualified immunity and are thereby shielded from liability. See
White, 137 S. Ct. at 552 (explaining “clearly established” analysis requires identification of a case where
an officer acting under similar circumstances as the
defendant officer was held to have violated a constitutional right). Defendants’ motion for summary judgment on Plaintiffs’ claims against the individual
Defendants is therefore GRANTED on this alternative ground.
B. Deliberate Indifference to Serious Medical
Needs – Monell Claims
A municipality may not be held liable under Section 1983 for the unconstitutional acts of its employees
on a theory of respondeat superior. Connick v. Thompson, 563 U.S. 51, 60 (2011). A municipality may only be
held liable under Section 1983 where it causes the constitutional violation through its established policies,
customs, or practices. Monell v. Dep’t of Soc. Servs. of
City of New York, 436 U.S. 658, 690-91 (1978). “In order
to establish municipal liability, a plaintiff must show
that a ‘policy or custom’ led to the plaintiff ’s injury.”

App. 117
Castro, 833 F.3d at 1073 (quoting Monell at 694).
“The [Supreme] Court has further required that the
plaintiff demonstrate that the policy or custom of a
municipality ‘reflects deliberate indifference to the
constitutional rights of its inhabitants.’ ” Id. (quoting
City of Canton v. Harris, 489 U.S. 378, 392 (1989)).
Plaintiffs’ complaint advances two theories of
Monell liability. First, the County’s “custom and practice” at the Central Jail “to use the medical screening
cells as administrative segregation cells or ‘keep separate’ cells” without requiring nurses to pass-down information about persons held in those cells unless they
“need attention” is deliberately indifferent to inmates’
and pretrial detainees’11 serious medical needs. (FAC
¶¶ 51-52.) Second, the County failed to train its staff
about the requirements of the observation policy,12
which constitutes deliberate indifference to inmates’
and pretrial detainees’ lives. (Id. ¶¶ 64, 67, 69.) The
Court finds there is insufficient evidence to create a

11

Plaintiffs’ briefing solely discussed deliberate indifference
to inmates’ constitutional rights. In light of Sandoval’s status as
a pretrial detainee, the Court assumes Plaintiffs intended to include pretrial detainees in their arguments.
12
Plaintiffs’ complaint alternatively asserted the County
failed to adopt an observation policy for the medical screening
cells. (Compl. ¶¶ 64, 67, 69.) However, Plaintiffs’ opposition inexplicably intertwines its discussion of both of its Monell liability
theories, which did not include discussion of this alternative assertion, which the Court deems waived. (See Opp’n at pp. 25-27.)
In any event, this claim appears to fall under Plaintiffs’ arguments regarding its unconstitutional policy, practice, or custom
claim.

App. 118
genuine issue of fact for either of Plaintiffs’ Monell theories.
1. Policy, Practice, or Custom Claim
In order to establish Monell liability for an unconstitutional policy, practice, or custom claim, a plaintiff
must prove: “(1) that [the plaintiff ] possessed a constitutional right of which [s]he was deprived; (2) that the
municipality had a policy; (3) that this policy amounts
to deliberate indifference to the plaintiff ’s constitutional right; and, (4) that the policy is the moving force
behind the constitutional violation.” Dougherty v. City
of Covina, 654 F.3d 892, 900 (9th Cir. 2011) (quoting
Plumeau v. Sch. Dist. No. 40 Cnty. of Yamhill, 130 F.3d
432, 438 (9th Cir. 1997)) (internal quotation marks
omitted; alterations in original).
Plaintiffs argue Sandoval’s death and failure to receive adequate medical care for his serious medical
needs were caused by the County’s adoption of “a custom associated with MOC1” in which its medical staff
do not perform medical checks on MOC1’s inhabitants
unless they are told to do so by the outgoing medical
staff who would pass-down or endorse this information
before leaving their shift (hereinafter referred to as the
“custom” or “verbal pass down system”). (Opp’n at pp.
25-26.) The County does not deny the existence of the
alleged custom. Instead, it maintains no constitutional
violation occurred, and it therefore cannot be liable for
Sandoval’s death. (Mot. at pp. 9-10.) Thus, the Court
must determine whether there is sufficient evidence to

App. 119
support Plaintiffs’ claim that the verbal pass down system amounts to deliberate indifference to Sandoval’s
constitutional right and caused a constitutional violation. The Court finds there is not.
Plaintiffs rely on the deposition testimony of several County employees. They say that the verbal pass
down system caused confusion amongst the medical
staff, and that after Sandoval’s death, the County instituted a policy change to ameliorate this confusion.
(Opp’n at pp. 26-27.) In a conclusory fashion, Plaintiffs
contend that “relying solely on a verbal pass down system does not account for the hectic scenarios that occur in county jails” such as when “[n]urses could be
working overtime and forget [or] get called away on a
man-down without properly endorsing the inmate to
another nurse.” (Id.) However, none of the evidence establishes that the verbal pass down system previously
caused a constitutional violation, i.e., inadequate care
for a serious medical need. Indeed, Plaintiffs
acknowledge that the verbal pass down system requires the outgoing medical staff to verbally inform the
incoming medical staff of any known medical needs a
MOC1 inhabitant may have.13 (Id.)
At best, Plaintiffs have established that some of
the County staff were sometimes confused about why
an inmate or pretrial detainee was being held in
MOC1, and are of the opinion that a new policy was
13

Notably, Plaintiffs did not present evidence of prior inmates or pretrial detainees being held in MOC1 who were denied
adequate medical care for their known serious medical needs or
died as a result.

App. 120
needed to prevent this confusion. But without evidence
of prior injury or death to MOC1 inhabitants due to a
failure to pass down information about a known serious medical need, Plaintiffs have not demonstrated a
genuine issue of material fact of a causal connection
between the custom and Sandoval’s alleged failure to
receive adequate medical care or death.
In short, based on these facts, the Court finds
Plaintiffs have failed to present sufficient evidence
that the County’s verbal pass down system is a custom
that causes its employees to be deliberate indifference
MOC1 inhabitants’ serious medical needs, or that
there is a causal connection between the custom and
the alleged constitutional violation. Defendants’ motion for summary judgment of this claim is
GRANTED.
2. Failure to Train Claim
In limited circumstances, an allegation of a “failure to train” can be the basis for liability under Section
1983. Canton, 489 U.S. at 387. To establish liability, a
plaintiff must show: (1) deprivation of a constitutional
right; (2) a training policy that “amounts to deliberate
indifference to the [constitutional] rights of persons”;
and (3) that his constitutional injury would have been
avoided had the municipal entity properly trained its
employees. Blankenhorn v. City of Orange, 485 F.3d
463, 484 (9th Cir. 2007) (citing Lee v. City of Los Angeles, 250 F.3d 668, 681 (9th Cir. 2001)) (internal citation
and quotation marks omitted). “A pattern of similar

App. 121
constitutional violations by untrained employees is ‘ordinarily necessary’ to demonstrate deliberate indifference for purposes of failure to train. . . . Without notice
that a course of training is deficient in a particular respect, decision makers can hardly be said to have deliberately chosen a training program that will cause
violations of constitutional rights.” Connick, 563 U.S.
at 62.
Here, in essence Plaintiffs argue the County
trained its medical staff to “ignore” inmates in MOC1
unless they observe a medical need or information
about a medical need is passed down or endorsed by
the outgoing medical staff to the oncoming medical
staff. (Opp’n at pp. 26-27.) Plaintiffs conclude without
evidence that if the County had implemented the same
standing order to perform hourly medical checks on
MOC1 as it does “safety and sober cells,” Sandoval
“would have been evaluated at least eight times, by two
different medical shifts, and his death would likely
have been prevented.” (Opp’n at p. 27.) Even if the
Court assumes Plaintiffs’ premise, i.e., that at least six
nurses ignored Sandoval because they were not passed
down information about him, their conclusion is not
supported by the evidence. (Id. at p. 27 n.8.)
As discussed above, prior to being placed in MOC1,
several deputies and County nurses asked Sandoval
how he was doing and whether he was under the influence of drugs or alcohol, either as part of their normal
course, or because they observed Sandoval as sweaty,
lethargic, or somewhat disoriented. Rather than advise them of his actual serious medical need (acute

App. 122
methamphetamine intoxication), Sandoval stated he
may be diabetic, had a cold the week prior (but no
longer had it), denied use of drugs or alcohol, felt cold,
and wanted to feel better. His blood sugar level was
tested, found to be normal, and he was provided with
extra meals as a precaution. Once Sandoval was placed
in MOC1, he was given an additional blood sugar level
test, also normal, and was asked again whether he was
okay and whether he was under the influence of drugs
or alcohol. Again he denied using drugs or alcohol.
Moreover, at no point did Sandoval request medical
care for, or give any other indication that he required
care for, a substantiated serious medical need. In
MOC1, he was constantly visible to the nursing staff,
who did not observe him as having a serious medical
need until he fell, which did prompt their immediate
response.
Even viewing these facts in the light most favorable to Plaintiffs, the evidence does not indicate a failure in training that amounts to deliberate indifference
to a constitutional right, much less that the alleged inadequate training caused Sandoval’s death.14 Thus,
Plaintiffs have failed to raise a triable issue of material
fact as to this claim. Accordingly, summary judgment
for Defendants on this claim is GRANTED.

14

On the contrary, the evidence indicates that if Sandoval
had presented with symptoms of a serious medical need or told
the medical staff he had ingested an inordinate amount of methamphetamine, this information would have been passed down or
endorsed from outgoing staff to oncoming staff, per the policy.

App. 123
CONCLUSION
Although Sandoval’s death was tragic and premature, the Court finds Plaintiffs have not established
sufficient evidence to support their claims that the individual Defendants or the County violated Sandoval’s
constitutional rights. Therefore, the Court finds summary judgment appropriate for each of Plaintiffs’ federal claims, upon which its jurisdiction is based. The
Court declines to retain supplemental jurisdiction
over Plaintiffs’ remaining state law claims, which are
hereby REMANDED to the San Diego Superior Court.
IT IS SO ORDERED.
Dated:

February 6, 2018
/s/ Roger T. Benitez
Hon. Roger T. Benitez
United States District Judge

App. 124
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANA SANDOVAL,
individually and as
successor in interest to
Ronnie Sandoval, Jr.; et al.,
Plaintiffs-Appellants,

No. 18-55289
D.C. No.
3:16-cv-01004-BEN-AGS
Southern District of
California, San Diego

v.

ORDER

COUNTY OF
SAN DIEGO; et al.,

(Filed Mar. 25, 2021)

Defendants-Appellees.
Before: WARDLAW and COLLINS, Circuit Judges,
and BATAILLON,* District Judge.
Judges Wardlaw and Bataillon have voted to deny
Appellees’ petition for panel rehearing. Judge Collins
has voted to grant the petition. Judge Wardlaw has
also voted to deny Appellees’ petition for rehearing en
banc, and Judge Bataillon has so recommended. Judge
Collins has voted to grant the petition.
The full court has been advised of the petition for
rehearing en banc and no judge requested a vote on
whether to rehear the matter en banc. Fed. R. App. P.
35.

* The Honorable Joseph F. Bataillon, United States District
Judge for the District of Nebraska, sitting by designation.

App. 125
The petition for panel rehearing and rehearing en
banc is DENIED.

